<html>
<title> - HOMELAND SECURITY RESEARCH AND DEVELOPMENT AT THE EPA: TAKING STOCK AND LOOKING AHEAD</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                     HOMELAND SECURITY RESEARCH AND
                     DEVELOPMENT AT THE EPA: TAKING
                        STOCK AND LOOKING AHEAD

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2004

                               __________

                           Serial No. 108-60

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                 U.S. GOVERNMENT PRINTING OFFICE

93-757                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001












                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
       AMY CARROLL Professional Staff Member/Chairman's Designee
                ADAM SHAMPAINE Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant
















                            C O N T E N T S

                              May 19, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    11

                               Witnesses:

Dr. Paul Gilman, Science Advisor to the U.S. Environmental 
  Protection Agency; Assistant Administrator for Research and 
  Development
    Oral Statement...............................................    13
    Written Statement............................................    16
    Biography....................................................    23

Dr. Penrose Albright, Assistant Secretary, Science and Technology 
  Directorate, Department of Homeland Security
    Oral Statement...............................................    23
    Written Statement............................................    26

Dr. Charles E. Kolb, Jr., President and CEO, Aerodyne Research, 
  Inc.
    Oral Statement...............................................    29
    Written Statement............................................    30
    Biography....................................................    32

Dr. Gregory B. Baecher, Professor and Chairman, Department of 
  Civil and Environmental Engineering, University of Maryland
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    37
    Financial Disclosure.........................................    37

Discussion
  FY 2005 Building Decontamination Research Funding and 
    Jurisdiction.................................................    38
  Cooperative Research and Development Agreements (CRADAs) 
    Timeframes...................................................    40
  Decontamination Restoration Turnaround Time, Standards, and 
    Technologies.................................................    41
  Field Validation of Indoor Air Exposure Models.................    43
  Threats to Wastewater Infrastructure...........................    44
  Environmental Protection Agency's Role in Detection and 
    Containment..................................................    46
  Critical Research Areas on Buildings Decontamination and Water 
    Systems......................................................    47
  President's Budget Request for Decontamination.................    50
















HOMELAND SECURITY RESEARCH AND DEVELOPMENT AT THE EPA: TAKING STOCK AND 
                             LOOKING AHEAD

                              ----------                              


                        WEDNESDAY, MAY 19, 2004

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to other business, at 9:35 
a.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Vernon J. Ehlers [Chairman of the Subcommittee] presiding.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     Homeland Security Research and

                     Development at the EPA: Taking

                        Stock and Looking Ahead

                        wednesday, may 19, 2004
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, May 19, 2004 at 2:00 p.m., the Subcommittee on 
Environment, Technology, and Standards of the House Science Committee 
will hold a hearing on the homeland security research and development 
activities of the Environmental Protection Agency (EPA).
    The hearing will focus specifically on two EPA research programs: 
one focused on improving the security of the Nation's critical water 
infrastructure and the other one focused on methods to decontaminate 
buildings that have been exposed to chemical or biological agents (such 
as anthrax and ricin). Both programs are housed in EPA's Homeland 
Security Research Center (HSRC), which EPA established in 2002 and 
plans to discontinue at the end of Fiscal Year 2005 (FY05).
    The Subcommittee wants to better understand how these programs are 
working, how they are coordinated with the Department of Homeland 
Security (DHS), and the rationale for the proposed budget cut to the 
building decontamination program. The National Academy of Sciences 
(NAS) recently reviewed these programs and was critical of, among other 
things, EPA's focus on short-term research needs to the exclusion of 
needed long-term research.
    The hearing will address the following overarching questions:

        <bullet>  What is EPA's role in homeland security research and 
        development?

        <bullet>  How does EPA set short- and long-term priorities and 
        coordinate its building and water research with DHS and the 
        private sector?

        <bullet>  What recommendations has the NAS made to EPA on its 
        building and water security research, and how has EPA responded 
        to those recommendations?

        <bullet>  Why does the Administration's FY05 budget propose to 
        eliminate funding for EPA's Safe Building Program? Who is 
        expected to carry out this research in the future?

2. Witnesses:

Dr. Paul Gilman is the Assistant Administrator for the Office of 
Research and Development at the U.S. EPA.

Dr. Penrose (Parney) C. Albright is Assistant Secretary in the Science 
and Technology Directorate at the Department of Homeland Security 
(DHS).

Dr. Charles E. Kolb, Jr., is the President and CEO of Aerodyne 
Research, Inc. He has served on a variety of NAS panels and was a 
member of the panel that reviewed EPA's Safe Buildings Research 
Program.

Dr. Gregory B. Baecher is a Professor and Chairman of the Department of 
Civil and Environmental Engineering at the University of Maryland. He 
is a member of the NAS Water Science and Technology Board and the Board 
on Infrastructure and the Constructed Environment. He was a member of 
the NAS panel that reviewed EPA's Water Security Research program.

3. Brief Overview

        <bullet>  EPA's Roles and Responsibilities: EPA has long-
        standing statutory responsibilities for responding to 
        emergencies involving releases of industrial chemicals and some 
        radiological materials. Supplemented by recent Homeland 
        Security legislation\1\ and numerous Presidential Homeland 
        Security Directives since 1995,\2\ EPA has been assigned a 
        variety of roles in detecting and responding to chemical, 
        radiological, or biological threats to the water, air, 
        buildings, and food and agricultural systems. For example, EPA 
        has been named the lead agency for building decontamination, a 
        responsibility which includes developing standards for when is 
        it safe to re-enter a building. The agency also has lead 
        responsibility for water systems security, and plays a 
        supporting role for agriculture and food security.
---------------------------------------------------------------------------
    \1\ The Public Health Security and Bioterrorism Preparedness and 
Response Act of 2002 (Public Law 107-188) directed EPA to undertake 
research and support vulnerability assessments for drinking water 
systems.
    \2\ Presidential Decision Directive (PDD) 39, U.S. Policy on 
Counter Terrorism (1995); PDD 62, Protection Against Unconventional 
Threats to the Homeland and America Oversees (1998); PDD 63, Critical 
Infrastructure Protection (1998); Homeland Security Presidential 
Directive (HSPD) 5, Management of Domestic Incidents (2003); HSPD 7, 
Critical Infrastructure Identification, Prioritization and Protection 
(2003); HSPD 9, Defense of United States Agriculture and Food (2004); 
HSPD 10, National Biodefense Strategy (2004).

        <bullet>  Creation of the Homeland Security Research Center: To 
        respond to its growing homeland security research 
        responsibilities, EPA consolidated its homeland security 
        research programs into a Homeland Security Research Center 
        (HSRC) in September, 2002.\3\ HSRC's management and core staff 
        operate out of Cincinnati, OH, although many other agency 
        personnel are affiliated with the center. The goal of the HSRC 
        was the rapid production of technical information, guidance and 
        risk assessment tools to support the prevention, detection, 
        containment, and decontamination of chemical and biological 
        attacks against water systems and buildings. Much of the 
        research is supported through extramural contracts. EPA 
        originally planned the HSRC as a temporary organization that 
        would be discontinued at the end of FY05. The original 
        rationale for establishing a temporary center was to avoid a 
        protracted internal organizational fight that might occur if 
        the HSRC was viewed as a permanent entity and to begin research 
        as soon as possible. However, given longer-term research needs, 
        EPA is now considering whether to extend the life of the HSRC.
---------------------------------------------------------------------------
    \3\ EPA also established several new offices and reorganized 
others. In addition to establishing the HSRC, EPA created an Office of 
Homeland Security in the Administrator's office to advise the 
Administrator and coordinate Agency-wide activities, and a new division 
for Water Security in the Office of Water. It also consolidated 
emergency response and preparedness functions in the Office of Solid 
Waste and Emergency Response to create an Office of Emergency 
Prevention, Preparedness and Response.

        <bullet>  HSRC Organization: The HSRC is organized into three 
        major program areas: (1) the Safe Buildings Program focuses on 
        protection of building occupants in the event of contamination 
        with chemical or biological agents and the various stages of 
        building cleanup, which include detection, containment, 
        decontamination, and disposal; (2) the Water Security Research 
        Program focuses on preventing, detecting and responding to 
        contaminants intentionally introduced into water supply, 
        treatment, and distribution infrastructures; and (3) the Rapid 
        Risk Assessment Program develops information systems, risk 
        estimates, and risk communication tools for first responders 
        and operators of buildings and water systems. The Center also 
        supports five Environmental Technology Verification Centers 
        (ETVs) that verify the performance of technologies that can be 
        used to decontaminate and monitor environments in buildings and 
        water systems.\4\
---------------------------------------------------------------------------
    \4\ These centers are run by a variety of organizations, including 
Battelle National laboratory and NSF International (formerly known as 
the National Sanitary Foundation, a voluntary standards-setting 
organization). To date, the five verification centers have reviewed or 
are reviewing more than 35 technologies in such areas as cyanide water 
detectors, rapid toxicity testing, chemical air detectors, air 
ventilation filters, and building decontamination technologies.

        <bullet>  DHS Roles and Responsibilities: DHS has overall 
        responsibility for coordinating federal homeland security R&D, 
        including water security and building decontamination research. 
        It coordinates with EPA through informal interactions and 
        interagency working groups and carries out research intended to 
        compliment the research that EPA carries out as the overall 
        lead for building decontamination and water security. For 
        example, DHS has focused its water security and building 
        decontamination programmatic priorities on worst-case scenarios 
        that could result in very large numbers of casualties 
        (thousands, or tens of thousands), such as determining what and 
        how biological or chemical agents could lead to high-casualty 
        incidents. It also has focused on developing and testing 
        protocols to improve overall system response in case of an 
        event and on technologies for detection and decontamination 
---------------------------------------------------------------------------
        where it has unique expertise.

        <bullet>  National Academy of Sciences Studies: In 2003, at 
        EPA's request, the NAS convened two panels--one to review EPA's 
        research agenda for its water security research program and the 
        other to review the agenda for the Safe Buildings Program. 
        Specifically, EPA asked the Academy to assess whether EPA's 
        plans identified the most important research questions, and, if 
        not, what research should be added. The agency also asked 
        whether EPA's water security and building decontamination 
        research was appropriately prioritized. Both reviews were 
        completed in the fall of 2003. EPA has indicated that it waited 
        for the NAS recommendations before obligating its FY03 and FY04 
        homeland security research funds.

        <bullet>  EPA Funding for the Homeland Security Research Center 
        and the Proposed FY05 Budget Cut: Congress appropriated 
        approximately $51 million in FY03 for the HSRC and $27 million 
        in FY04. These figures include funding for the rapid risk 
        assessment program, which supports both building and water 
        security research. Building decontamination funds are 
        transferred from the Agency's Superfund account (which 
        traditionally funds cleanup of industrial chemical 
        contamination), and water funds are provided from the agency's 
        Science and Technology (S&T) account. The President's budget 
        submission requests $22 million for the HSRC in FY05, a $6 
        million (21 percent) reduction. While $2 million has been added 
        for biodefense research, the FY05 President budget proposes to 
        eliminate funding for the building decontamination research 
        program.\5\
---------------------------------------------------------------------------
    \5\ Congress also appropriated an additional $15 million in FY03 
and $25 million in FY04 from the S&T account to EPA's Water Office for 
related water security research.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


4. Key Issues

What did the NAS conclude about EPA's building and water security 
        research plan?
    The NAS created two panels--one to examine EPA's water security 
research plan and the other to review the Safe Buildings Program 
research plan. Although the panels were asked to answer the same 
questions, they approached their tasks differently. The panel that 
examined the building program looked more at the overall plan and 
focused on those areas in which EPA could make the most difference in 
the time before the HSRC closed its doors. The water security panel 
examined the details of the proposed research projects and made many 
specific recommendations for improving individual projects.

1. Safe Buildings Program

    The NAS panel concluded that EPA correctly identified the major 
research areas essential for the Safe Buildings Program. However, it 
also found some important shortcomings that EPA should address. 
According to the panel, because the research plan contained too many 
short-term projects that could not be completed within the three-year 
life of the HSRC, EPA should narrow its research to those priority 
areas that could be completed within the three-year life of the center. 
The panel specifically recommended that EPA:

        <bullet>  focus on decontamination and disposal research, and 
        support research on detection and containment only to the 
        extent that they support research on decontamination and 
        disposal;

        <bullet>  place special emphasis on the development of building 
        decontamination standards that would help determine ``how clean 
        is safe;'' and

        <bullet>  do a better job of setting priorities and use threat 
        scenarios to guide its priorities.

2. Water Security Research

    The NAS panel made nearly 100 specific recommendations to 
strengthen EPA's water security research plan. According to the panel:

        <bullet>  EPA's water security research plan included more 
        research than the agency could carry out in three years;

        <bullet>  the plan should clearly identify short-, medium- and 
        long-term research needs;

        <bullet>  the plan should identify funding levels required to 
        the perform the indicated research;

        <bullet>  the plan should establish an overarching framework to 
        describe how the individual research projects contribute to 
        improved water security;

        <bullet>  research is needed on the costs and benefits of water 
        security measures; and

        <bullet>  the agency must more rapidly disseminate its research 
        findings to water utility officials.

Why does the administration propose to eliminate EPA's safe buildings 
        program in its FY05 budget request and who will carry out this 
        research in the future if the program is cut?
    EPA's Congressional budget justification for its FY05 request 
indicates that the proposed $8.2 million budget decrease represents the 
complete elimination of homeland security building decontamination 
research, but offers no rationale for eliminating the program and does 
not explain whether this work will be carried out by other agencies in 
the future. At a February 2004 Science Committee hearing on the 
President's FY05 budget request for civilian science agencies, Dr. 
Charles McQueary, DHS Under Secretary for Science and Technology, 
expressed the view that building decontamination research is a 
critically important component of homeland security research, but he 
was not familiar with why the program at EPA was cut, or if any other 
agency was expected to take over these functions. At a March 2004 
Environment, Technology, and Standards Subcommittee hearing on EPA's 
FY05 budget request, Clayton Johnson III, Deputy Director for 
Management at the Office of Management and Budget, explained that EPA 
did not need the funds for its building decontamination research 
program in FY05 because the agency had not yet obligated its FY03 
funds. According to EPA, however, the agency delayed obligating FY03 
funds because it received its FY03 funds very late in the fiscal year, 
and was awaiting the results of the two NAS studies and other input 
before deciding where to invest the funds. All EPA FY03 budgeted 
building decontamination research funds have since been obligated.
What high-priority research will not begin or be completed if funds are 
        not available for EPA's safe buildings program in FY05?
    The proposed elimination of funding for the Safe Buildings Program 
would halt many ongoing high-priority research projects and prevent the 
start of others, according to EPA. (See Attachment A for a 
comprehensive list of EPA programs that would be terminated or 
otherwise delayed due to the proposed FY05 budget cut). Among projects 
that would not be completed are field-tests of a sampling and analysis 
protocol for anthrax, an indoor air human exposure model for chemical 
and biological contaminants, and guidance on methods for using a 
building's air handling systems to mitigate and contain contamination. 
EPA would also be unable to evaluate a range of emerging 
decontamination methods, and would limit its analysis of methods for 
biological decontamination almost exclusively to anthrax.
Are there homeland security threats related to EPA responsibilities 
        that EPA and DHS R&D programs are not addressing?
    Although EPA's responsibilities for building decontamination and 
water system security are now formalized, there are still situations 
where authority and responsibility remain undefined. For example, 
according to DHS, it is not clear that any federal agency has lead 
responsibility for research on detection, response, and decontamination 
of an open space in a populated area such as the National Mall in 
Washington, DC. Any remaining gaps should be identified and prioritized 
relative to other research needs.
    Research gaps may take other forms as well. According to many 
experts, the success of any response to a chemical, biological or 
radiological attack will also depend on more than clear formal lines of 
responsibility. The response to a real attack will involve a complex 
mix of skills of federal, State and local agencies that have little 
experience operating together and are not familiar with each others 
protocols or standards. Additional interagency agreements and more 
field tests of response protocols may be required to ensure that we are 
as prepared as possible for a real event.

5. Witness Questions

Dr. Gilman:

        <bullet>  Please describe the Environmental Protection Agency's 
        (EPA's) role in homeland security research and development 
        (R&D) in general, and provide specific details on the agency's 
        homeland security efforts in water and building R&D.

        <bullet>  What are EPA's short- and long-term research plans in 
        these areas? Are there any critical research areas not included 
        in these plans? If so, why? How does EPA set its research 
        priorities and coordinate with the Department of Homeland 
        Security and the private sector?

        <bullet>  What specific steps has EPA taken to implement the 
        National Academy of Sciences' recommendations on the agency's 
        water and building homeland security R&D agendas? Does the 
        agency agree with all the recommendations? If not, please 
        provide examples and explain why.

        <bullet>  Why did the Administration's FY05 budget request for 
        EPA eliminate funding for the homeland security building 
        research program? What specific projects and research will not 
        be funded because of the budget request? Has EPA identified 
        another entity to conduct the research, or will EPA request 
        funding in FY06 to conduct the work?

Dr. Albright:

        <bullet>  Please describe the Environmental Protection Agency's 
        (EPA's) and the Department of Homeland Security's (DHS's) roles 
        in homeland security research and development (R&D) for water 
        systems and buildings? In which areas of homeland security R&D 
        does EPA have the lead role for the Federal Government, and in 
        which areas does it have a supporting role?

        <bullet>  Are there additional R&D needs for building and water 
        security in either the short- or long-term? If so, is this R&D 
        that EPA should be doing?

        <bullet>  Has EPA incorporated the input of DHS and the private 
        sector into its R&D agenda? How has DHS incorporated the input 
        of EPA into its R&D planning? Do EPA and DHS jointly fund or 
        implement projects or programs? If so, please provide examples.

        <bullet>  Given the Administration's proposal to eliminate 
        homeland security building research at EPA, how will the 
        federal government ensure that this research is carried out in 
        fiscal year 2005? Who will be responsible for this research?

Dr. Kolb:

        <bullet>  Please outline the key findings and recommendations 
        of the National Academy of Sciences' report, A Review of 
        Homeland Security Efforts: Safe Building Program Research 
        Implementation Plan.

        <bullet>  Is there sufficient collaboration among Environmental 
        Protection Agency (EPA), the Department of Homeland Security 
        (DHS) and other interests to ensure that EPA is properly 
        focusing its research agenda? If not, what steps should EPA and 
        DHS take to improve this collaboration?

Dr. Baecher:

        <bullet>  Please outline the key findings and recommendations 
        of the National Academy of Sciences' report, A Review of the 
        EPA Water Security Research and Technical Support Plan (Part 1 
        & 2).

        <bullet>  Is there sufficient collaboration among Environmental 
        Protection Agency (EPA), the Department of Homeland Security 
        (DHS) and other interests to ensure that EPA is properly 
        focusing its research agenda? If not, what steps should EPA and 
        DHS take to improve this collaboration?

Attachment A

    According to EPA, the following projects would be eliminated due to 
the proposed FY05 budget cuts:

        <bullet>  EPA will complete development and bench scale 
        validation of an approved sampling and analysis protocol for 
        anthrax. However, it would not field validate the method or 
        develop methods for 10 additional biological agents.

        <bullet>  EPA has completed an evaluation of the effectiveness 
        of residential safe havens (duct tape and plastic). However, it 
        would not complete an evaluation for non-residential safe 
        havens (e.g., work environment). These involve considerably 
        more complex approaches.

        <bullet>  EPA has completed development of a building indoor 
        air exposure model to estimate human exposure to chemical and 
        biological contaminants from an attack. However, the model 
        would not be field validated.

        <bullet>  EPA will provide interim guidance on the design and 
        operation of existing building decontamination methods. 
        However, it would be unable to evaluate a range of emerging 
        decontamination methods nor conduct field validation of 
        existing methods and provide final guidance. Also, methods for 
        biological decontamination would be limited almost exclusively 
        to anthrax.

        <bullet>  EPA will complete threat assessment and exposure 
        simulations for the highest consequence building attack 
        scenarios. However, other scenarios would not be addressed.

        <bullet>  EPA will complete interim guidance on methods for 
        using building air handling systems to mitigate and contain 
        contamination from chemical and biological attacks. However, it 
        would not complete field verification and a complete analysis 
        of the consequences of external (ambient) attacks.

        <bullet>  EPA will complete ETV commercial technology 
        performance verifications for two chemical-in-air detectors, 
        ten ventilation air filters and three building decontamination 
        technologies. It would not be able to continue the evaluation 
        of building air filters in FY04 and FY05 and would terminate 
        the air detector verifications after FY04.

        <bullet>  EPA will complete interim guidance on disposal 
        technologies for decontamination waste and residuals. However, 
        field evaluation of contaminant transport and fate in landfills 
        and landfill gases would not be possible, preventing completion 
        of final guidance.

        <bullet>  EPA will complete laboratory evaluation of improved 
        sterilant efficacy testing methods for pesticide crisis 
        exemptions. Field verifications would not be completed.

        <bullet>  EPA will evaluate the requirements that would need to 
        be met by existing sensors to assure adequate performance for 
        decontamination. However, it would not evaluate new sensor 
        technologies.

        <bullet>  EPA also would not complete:

                  adaptation of existing LASER and infrared sensors 
                for building protection and decontamination

                  case studies and design guidance for retrofitting 
                building protection systems into existing structures

                  research on the impact of building environmental 
                conditions and human activities on the dispersal and 
                exposure contact to chemical and biological agents

                  research on contaminant infiltration through 
                building shells and dispersion of heavier-than-air 
                gasses.
    Chairman Ehlers. I apologize for the delay. We are supposed 
to wait for a member of the minority to show up, so we will 
have a slight pause.
    I am pleased to open this hearing. I would like to welcome 
everyone to this hearing--today's hearing on Homeland Security 
research and development at the Environmental Protection 
Agency, which everyone refers to as EPA. One of our Federal 
Government's most fundamental duties is to protect our 
citizens. Since September 11th, 2001, how we perform this duty 
has changed drastically, because threats that we once found 
only in movies are now unmistakably real.
    Perhaps the most significant change was the creation of the 
Department of Homeland Security to lead our national effort, 
but many other agencies, such as EPA, are also crucial to the 
success of our effort.
    EPA is, in fact, the lead federal agency for protecting our 
nation's drinking and wastewater systems, and for 
decontaminating buildings that have been exposed to chemical or 
biological agents, such as anthrax. EPA's research programs 
help set standards, assess risks, develop methods for measuring 
contaminants, and test and deploy technologies for responding 
to chemical or biological events.
    Today, we will examine these programs to learn how EPA sets 
its priorities and coordinates its work with the Department of 
Homeland Security.
    We will hear from experts from the National Academy of 
Sciences who reviewed EPA's water security and building 
decontamination research plans, and made recommendations to 
improve those efforts.
    We also want to understand why the President's Fiscal Year 
2005 budget proposes to eliminate funding for EPA's building 
decontamination program. This seems particularly troubling, 
given EPA's designation as a lead federal agency for building 
decontamination.
    Finally, we are concerned that EPA plans to close its 
Homeland Security Research Center at the end of Fiscal Year 
2005. The center was created in 2002 to coordinate and conduct 
EPA's homeland security-related research. Closing it so soon, 
when so many research questions remained unanswered, makes no 
sense to me. It also raises the larger question of who will 
carry out and coordinate this vital research, if EPA closes 
this center.
    I look forward to the testimony and hope we can answer 
these important questions. I would also like to note that Mr. 
Boehlert has a deep interest in this topic, and wanted to be 
here, both to make a statement and to answer questions, pardon 
me, ask questions. And unfortunately, he had to attend an 
Intelligence Committee meeting at this point.
    The only bright part of this is that we do have 
intelligence in the House, and everyone should be grateful for 
that, but we are sorry that he is not able to be with us, and 
without objection, we will make--we will have him, and any 
other Member who wishes to submit a statement, be able to do 
so, and to submit questions in writing to our witnesses.
    At this point, the Chair recognizes the gentleman from 
Colorado, Mr. Udall, the Ranking Minority Member on this 
subcommittee. His opening statement.
    [The prepared statement of Chairman Ehlers follows:]
            Prepared Statement of Chairman Vernon J. Ehlers
    Welcome to today's hearing on Homeland Security research and 
development at the Environmental Protection Agency (better known as 
EPA). One of our Federal Government's most fundamental duties is to 
protect our nation's citizens. Since September 11th, how we perform 
this duty has changed drastically because threats that we once found 
only in movies are now unmistakably real.
    Perhaps the most significant change was the creation of the 
Department of Homeland Security to lead our national effort. But many 
other agencies, such as EPA, are also crucial to the success of our 
effort.
    EPA is, in fact, the lead federal agency for protecting our 
nation's drinking and wastewater systems, and for decontaminating 
buildings that have been exposed to chemical or biological agents, such 
as anthrax. EPA's research programs help set standards, assess risks, 
develop methods for measuring contaminants, and test and deploy 
technologies for responding to chemical or biological events.
    Today, we will examine these programs to learn how the EPA sets its 
priorities and coordinates its work with the Department of Homeland 
Security.
    We will hear from experts from the National Academy of Sciences who 
reviewed EPA's water security and building decontamination research 
plans and made recommendations to improve these efforts.
    We also want to understand why the President's Fiscal Year 2005 
budget proposes to eliminate funding for EPA's building decontamination 
program. This seems particularly troubling given the EPA's designation 
as the lead federal agency for building decontamination.
    Finally, we are concerned that EPA plans to close its Homeland 
Security Research Center at the end of Fiscal Year 2005. The center was 
created in 2002 to coordinate and conduct EPA's homeland security-
related research. Closing it so soon, when so many research questions 
remain unanswered, makes no sense to me. It also raises the larger 
question of who will carry out and coordinate this vital research, if 
EPA closes this center.
    I look forward to the testimony and hope we can answer these 
important questions.

    Mr. Udall. Mr. Chairman, thank you for convening this 
hearing regarding EPA's homeland security activities. I, too, 
join you in welcoming all of our panel members today.
    I would especially like to thank you--those of you who have 
served on the National Research Council Board, who reviewed 
EPA's research implementation plan. The comments and 
suggestions in all three NRC reports were insightful, and 
should facilitate the implementation and enhance the usefulness 
of EPA's homeland security programs.
    As you know, and as the Chairman mentioned, EPA has primary 
responsibility for the cleanup of buildings and other sites 
intentionally contaminated by chemical or biological agents. 
EPA also has primary responsibility for protecting the Nation's 
water system from acts of terror.
    So, I am concerned that EPA's Safe Buildings and Water 
Systems Security research programs will cease to exist after 
Fiscal Year 2005. In September 2002, these programs were 
introduced with only a three-year time span. I don't see how 
three years is sufficient time to achieve either the safe 
buildings or water systems security that the titles of these 
programs suggest.
    We don't have to look far to see the importance of these 
programs. The cleanup of the Hart Senate Office Building after 
the October 2001 anthrax attacks required three months of 
cleanup at a cost of approximately $27 million. The Brentwood 
Postal Facility took over two years and approximately $130 
million before it could be reoccupied, and the privately owned 
America Media Incorporated headquarters in Florida to this day 
remains boarded up and unoccupied.
    These tragic anthrax events are a case study for the 
continuing needs and requirements for effective rapid response, 
coordination, standardization, and decontamination research and 
development for both public and private spaces. It is 
interesting to note that on the same day that a ricin-laced 
letter closed Senate offices, the Administration asked Congress 
to eliminate the very program whose primary mission is the 
cleanup of contaminated buildings, EPA's Homeland Security 
Building Decontamination research program. I intend to fully 
explore the rationale and ramifications of the Administration's 
plans to eliminate this program.
    I am also concerned about interagency coordination. Active 
interagency dialogue and coordination are critical to avoid 
duplicative efforts, eliminate potentially dangerous security 
gaps, and improve response and recovery time in the event of an 
attack.
    I look forward to the testimony from our distinguished 
witnesses. I know that the panel will offer this committee 
valuable insights into agency coordination and suggestions for 
improvements to EPA's homeland security missions.
    Thank you, Mr. Chairman, and again, I want to welcome the 
panel.
    Chairman Ehlers. Thank you, Mr. Udall. And if there is no 
objection, all additional opening statements submitted by 
Subcommittee Members, either present or not present, will be 
added to the record.
    Without objection, so ordered.
    At this time, I would like to introduce our witnesses. We 
are fortunate to have a very good panel on this topic. We begin 
with the representative from the EPA, and I just mentioned that 
I will be granting a little extra time to him because of the 
amount of material that he has to present to us. Dr. Paul 
Gilman, who is the Assistant Administrator for the Office of 
Research and Development at the U.S. EPA, and directly 
responsible for the issues before us today. And we will have 
grant him seven minutes instead of the normal five.
    Next, we have Dr. Penrose Albright, who is the Assistant 
Secretary in the Science and Technology Directorate at the 
Department of Homeland Security. I am very pleased to have you 
here, and we take special pleasure, because this committee 
created your position, which unfortunately was left out of the 
original bill, and we are very pleased to have you and the 
Department represented.
    The next two members have spent considerable time reviewing 
EPA and the issues before us. First is Dr. E. Kolb, Jr., 
President and CEO of Aerodyne Research, Incorporated. He has 
served on a variety of NAS panels, and was a member of the 
panel that reviewed EPA's Safe Buildings research program.
    And then we also have Dr. Gregory Baecher, Professor and 
Chairman of the Department of Civil and Environmental 
Engineering, at the University of Maryland. He was a member of 
the NAS panel that reviewed EPA's Water Security research 
program.
    We will start with Dr. Gilman. He will receive seven 
minutes, as I mentioned. All the others will have five minutes. 
We ask you to summarize your written testimony, and try to stay 
within the time limits. And when you have completed your 
testimony, the procedure, as I suspect you know, is that 
Members of the Committee will ask questions, and they each will 
have five minutes for their questions.
    With that, we will proceed with Dr. Gilman.

  STATEMENT OF DR. PAUL GILMAN, PH.D., SCIENCE ADVISOR TO THE 
      U.S. ENVIRONMENTAL PROTECTION AGENCY AND ASSISTANT 
   ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Dr. Gilman. Thank you, Mr. Chairman. I am going to use some 
viewgraphs for purposes of this presentation.
    [Slide]
    This first one really lays out the areas of responsibility 
the Environmental Protection Agency (EPA) has in the arena of 
homeland security. My testimony goes into some detail on the 
legislative basis for all this. Most people are familiar with 
the National Incident Emergency Response that the Agency does.
    They are used to seeing the coats with EPA on the back at 
the scenes of hazardous waste spills and the like, but not in 
the homeland security area of protecting water infrastructure, 
decontamination and cleanup following either a chemical or 
biological attack, our principal areas of responsibility. 
Constructing a water systems surveillance infrastructure is 
also an area of responsibility, as is looking at the question 
of environmental laboratory analysis capacity and the 
methodology for environmental analysis, and then last, and the 
principal area for my discussion today, is research in support 
of decontamination and water systems.
    In going about our research agenda, and in establishing our 
Homeland Security Research Center, we set it up using several 
key operating principles--we would be focused on short-term 
results, high intensity activity, looking very much at applied 
solutions, and key to that was understanding the potential 
user's needs for technologies and methodologies and the like. 
We wanted to turn out high quality, useful products quickly, 
and that is really the key, Mr. Chairman, to the notion that we 
put a three-year sunset on the Homeland Security Research 
Center. We wanted our folks associated with this somewhat 
virtual center across EPA's research organization, to have that 
sense of urgency that comes with knowing that you are trying to 
do as much as you can in as short a period of time as possible.
    Key to achieving those things in the short period of time 
was partnering within the Office of Research and Development, 
across the Environmental Protection Agency, and very 
importantly, to other federal agencies and the private sector.
    I think we have done all of those things quite effectively, 
and I hope my testimony provides you with enough examples of 
that that we really can demonstrate that to your satisfaction. 
And ultimately, in that short timeframe, we were trying to 
isolate key and most important gaps in our knowledge and in our 
technology, and pursuing those accordingly.
    In order to set our research priorities, we started first 
by going to the stakeholders, as they are called, and trying to 
assess their needs. In this case, it was both inside the EPA, 
talking to our Office of Water, talking to our Office of 
Emergency Response, to the Department of Homeland Security, and 
outside stakeholders, the water companies themselves, folks 
involved in the design and operation of buildings, and other 
stakeholders that we could identify along the way.
    We then took that user-driven research strategy before the 
National Research Council. You will hear from the chairs of the 
two efforts there looking at our building program as well as 
our water program, and actually, one of the recommendations 
coming from them was to build another approach to trying to 
prioritize our work, so-called threat scenario analysis, and we 
have now done that. It is somewhat unique in the research 
community associated with homeland security, and we are very 
proud of it. We looked at over 130 contaminants of interest, 
3,500 different potential scenarios, looked at the potential 
economic and human health-related consequence of those 
different scenarios to, again, determine which were of the 
highest priority, and then even laid out simulations against 
those high priority ones to see which really were the ones that 
needed our nearest term attention.
    [Slide]
    This slide, really, is just intended to demonstrated 
somewhat graphically the number of partnerships we have created 
in order to carry out this work. It ranges from the Center for 
Disease Control to the Department of Homeland Security, 
Department of Energy, DARPA, DOD, the Army, the Air Force 
Research Lab, the Food and Drug Administration. I can go on 
for, actually, a couple of slides, to demonstrate really 
significant and formal relationships between ourselves and 
other agencies.
    Our goal, at the end of our three-year period, is to turn 
out a set of products for the water industry, for the industry 
associated with building decontamination, and on this slide 
here is an example of the kinds of products that we are in 
various phases of completing, as I speak to you. Examples 
include a web-based catalogue of technical resources for the 
water community, for the buildings community, an interactive 
web site, actually, for them to explore their needs. We have 
recently completed, and will be publishing very soon an 
assessment of residential safe havens for all those folks who 
heard about using duct tape and plastic. We have actually 
analyzed that scenario, looked to the circumstances in which it 
works well, and those in which it doesn't, in order to provide 
more concrete guidance in that arena. Developing early warning 
systems and operational guidance in the water arena for water 
systems, and on down the list. As you can see, there is quite a 
range of them, ranging from our three major areas of 
responsibility, water systems, building decontamination, and 
the development of risk assessment tools for first responders 
and planners in the arena of homeland security.
    What I thought I would do next is demonstrate a 
circumstance where we take existing research that is ongoing in 
the Agency, and have in effect used it for a dual purpose.
    [Slide]
    This slide is actually a visualization of a sort of 
standard model for understanding pluming, in this case, it is 
the aftermath of the collapse of the World Trade Center. The 
input data for this is meteorological data from nearby 
airports, New York's LaGuardia, Kennedy, Newark, and the like. 
NOAA, the Department of Energy, and others are trying to 
upgrade these models by providing more significant 
meteorological inputs to them.
    At the time of the World Trade Center collapse, EPA was 
actually working in midtown New York on better understanding, 
if you will, the greater granularity of exposure to the EPA 
criteria air pollutants in an urban setting, in urban canyons, 
if you will. And what you will see here is actually a 
simulation that was done as we moved that work downtown to make 
some relevance to the World Trade Center site, and as you can 
see, the streamlines and the vectors in this simulation really 
demonstrate the complexity that you can't really capture in 
that earlier plume simulation for that urban environment. So we 
are working now with NOAA, the Department of Homeland Security 
and Department of Energy to integrate these kinds of tools into 
the kind of plume modeling that we are all thinking of in a 
more traditional sense.
    [Slide]
    Now, this numerical modeling, this fluid dynamics model, 
done in silico, if you will, is all well and good, but to try 
and bring it back to reality, we utilized a wind tunnel in a 
collaborative effort with NOAA, a number of whose employees are 
located in Research Triangle Park, North Carolina, built a 
scale model of the World Trade Center site, and then built, in 
effect, the physical model to run against that computer model 
of the site, and working back and forth between the two, we 
were able to retrospectively--because we didn't have the kind 
of monitoring on hand at the time of the collapse of the 
buildings--look at the relative dilution of contaminants coming 
from the site at a time when we didn't have actual on-scene 
monitoring at the level that we subsequently had in the weeks 
following the collapse of the buildings. What this graphic 
demonstrates is, happily, that the exclusion zones that were 
set up around the World Trade Center site coincide very nicely 
with areas of highest concentration, and also that the dilution 
of the contaminants flowing from the site was quite rapid, as 
you left the site. In this case, the 100 represents the highest 
level of concentration. The green line at a factor of 10 is a 
factor of 10 reduction, and then the blue line at 1 is a 
further factor of 10 reduction in the concentration from that 
site.
    This kind of numerical modeling is also being used by us in 
collaboration, in this case, with Rutgers University, to try 
and reconstruct what the exposure might have been from the 
actual collapse of the building, for people in the immediate 
vicinity, and really looking at dust exposure. So, the 
simulation I am going to show you here, this is not a graphic, 
this is, again, a numerical model that demonstrates just what 
happens from first principles at the time of collapse.
    We are now working our way back into this to try and assign 
to it concentrations, so that we can begin to get at least in 
relative terms some notion of how people in the immediate 
vicinity of the building were exposed to the building materials 
from the collapse.
    Let me return to what you mentioned in your testimony about 
the three-year character of the Homeland Security Research 
Center. We are, as we always planned to be in the midst of an 
analysis of what are our products to date and what are our 
research needs for the future. We are doing this in 
collaboration with the Department of Homeland Security, the 
Homeland Security Council at the White House, the Department of 
Defense, a number of other organizations, intelligence 
organizations trying to understand evolving threats, and in 
light of the most recent Presidential Decision Directives in 
the arena of Homeland Security.
    So far, our stakeholder input has been that there is a 
continuing need for the research that we have been doing, and 
we will be taking that input into account as we prepare our 
Fiscal Year '06 budget for submission to the Congress.
    And that is the end of my statement, Mr. Chairman.
    [The prepared statement of Dr. Gilman follows:]
                   Prepared Statement of Paul Gilman

INTRODUCTION

    Good Morning Chairman Boehlert and Members of the Committee. I am 
Paul Gilman, Assistant Administrator for Research and Development and 
Science Advisor to the Administrator, United States Environmental 
Protection Agency (EPA). I welcome this opportunity to appear before 
you today to discuss how homeland security-related research and 
development (R&D) is prioritized, coordinated, and executed at EPA. 
Before I begin addressing the specifics of our R&D homeland security 
efforts, I would like to briefly discuss the genesis of EPA's role in 
homeland security and provide a brief history of the Agency's efforts 
in this important arena, as these factors have played an important role 
in directing EPA's R&D homeland security efforts.
    For over 30 years, EPA and our federal, State, local and tribal 
partners have made great progress toward a cleaner, healthier 
environment for the American public. Under the Federal Water Pollution 
Control Act, the Comprehensive Environmental Response, Compensation, 
and Liability Act (also known as CERCLA or ``Superfund''), the 
Superfund Amendments and Reauthorization Act (SARA) of 1986 (which 
includes the Emergency Planning and Community Right-to-Know Act 
(EPCRA), the Clean Water Act, as amended by the Oil Pollution Act of 
1990 (OPA), the Safe Drinking Water Act, and other authorities, EPA is 
responsible for preparing for and responding to emergencies involving 
the release of oil, hazardous substances, and certain radiological 
materials into the environment--any of which could be a component of a 
weapon of mass destruction. EPA has more than 200 On-Scene Coordinators 
(OSCs) at over 25 locations throughout the country, who are ready to 
quickly respond to release notifications. OSCs are the federal 
officials responsible for evaluating, monitoring or directing responses 
to oil spills and hazardous substance releases reported to the Federal 
Government. OSCs coordinate all federal efforts with, and provide 
support and information to local, State, tribal, and regional response 
communities. EPA also has specialized Environmental Response Teams and 
a Radiological Emergency Response Team available at all times. Working 
with other specialized federal resources, these teams and experts are 
available and trained to respond to incidents involving hazardous 
substances. EPA can also provide direction, coordination, and support 
on hazardous release situations as needed. EPA is also the lead agency 
for Hazardous Materials Response under Emergency Support Function (ESF) 
#10 of the Federal Response Plan, under which we assist the Federal 
Emergency Management Agency in managing the consequences of major 
emergencies and disasters by providing environmental monitoring, 
decontamination, and long-term site cleanup.
    In 1995, EPA was identified as one of six key federal agencies with 
roles in counter-terrorism. Since then, EPA's homeland security 
emergency response and infrastructure protection roles have been 
reaffirmed and expanded in PDDs 62, 63 and the more recent Homeland 
Security Presidential Directives (HSPD)-5 Management of Domestic 
Incidents, -8 National Preparedness, -9 Defense of United States 
Agriculture and Food, and -10 National Biodefense Strategy. We played a 
vital role in the federal response to the World Trade Center, anthrax 
and ricin incidents and continue to work hard to enhance our 
capabilities to respond to multiple nationally significant incidents if 
necessary. Under PDD 63 and the more recent HSPD-7 Critical 
Infrastructure Identification, Prioritization, and Protection, EPA has 
also been designated the lead agency for enhancing the protection of 
the Water Supply Sector of the Nation's infrastructure. Under the 
Public Health Security and Bioterrorism Preparedness and Response Act 
of 2002, EPA is assisting community water systems to conduct 
vulnerability assessments and develop emergency response plans. Other 
homeland security activities towards which EPA expertise has been 
applied include sample collection for the multi-agency program, 
BioWatch, an early warning system for the release of biological agents 
to outdoor air; the collection of environmental counter-terrorism 
evidence; and the decontamination of indoor building environments. 
HSPD-9 (Defense of United States Agriculture and Food) tasks EPA with 
additional homeland security responsibilities for the water sector. The 
recently issued HSPD-10 National Biodefense Strategy, assigns EPA to 
lead the interagency effort for the development of strategies, 
guidelines, and plans for decontamination following a biological 
weapons attack.
    With the post-September 11, 2001 increase in the pace and scope of 
EPA's activities, EPA faced a significant internal, as well as 
external, coordination challenge. In the weeks following the attacks, 
EPA's Administrator established a Homeland Security Working Group that 
included senior representatives from each of EPA's program offices 
involved in homeland security efforts. The group, led by the previous 
Deputy Administrator of EPA, developed a strategy for fulfilling our 
homeland security responsibilities while still fulfilling our 
traditional mission.
    In response to EPA's increasing responsibilities in homeland 
security, the Agency determined that it was necessary to modify EPA's 
internal structure in specific areas. An Office of Homeland Security 
was established in the Administrator's Office to advise the 
Administrator and continue to coordinate a consistent national approach 
to homeland security policy development across the Agency. The Office 
of Solid Waste and Emergency Response consolidated its emergency 
response and preparedness functions to create the Office of Emergency 
Prevention, Preparedness and Response (OEPPR), in order to focus many 
of the Agency's oil and hazardous substances emergency prevention, 
preparedness, and response duties. The Office of Water created a new 
division for Water Security, which created a permanent home for the 
activities that were being accomplished by the ad hoc Water Protection 
Task Force EPA created after September 11, 2001, to oversee protection 
of America's drinking water and wastewater systems. Finally, the Agency 
has established the National Homeland Security Research Center, which 
reports to me, to conduct and oversee research directly related to 
homeland security.
    EPA has also made important additions to our response capabilities 
to address the threats presented by terrorism. EPA is establishing a 
National Decontamination Team of highly specialized personnel who will 
provide decontamination expertise and assistance for buildings and 
other infrastructure following a weapons of mass destruction event. 
Further, EPA has recently made significant improvements to the Agency's 
Emergency Operations Center to assist in overall coordination of EPA's 
activities during nationally significant incidents. We also augmented 
our existing two Environmental Response Teams by establishing a third 
Team location in Las Vegas, co-located with the western component of 
our Radiological Emergency Response Team, to improve our ability to 
respond to emergencies in the western United States.

EPA HOMELAND SECURITY RESEARCH ACTIVITIES

    EPA research and development in support of the national homeland 
security effort is primarily conducted by the National Homeland 
Security Research Center (NHSRC) in the EPA Office of Research and 
Development (ORD). ORD is also collaborating with the EPA Office of 
Water, Office of Solid Waste and Emergency Response and Office of 
Pollution Prevention and Toxic Substances in a variety of science and 
technology efforts related to homeland security.
    The NHSRC was formed in October, 2002 in response to September 11th 
and the anthrax letter attacks to address critical science and 
technology knowledge gaps that became apparent in the emergency 
response and cleanup actions for those events. The goal of the research 
program is to rapidly provide appropriate and effective technologies, 
methods and technical guidance to understand the potential risks posed 
by potential chemical and biological terror attacks on buildings and 
water infrastructure and to improve our ability to detect and contain 
contaminants and decontaminate these facilities as necessary in the 
event of such attacks. Because of the urgency of generating this 
information, the Center was formed by reassigning some of the most 
experienced scientists and engineers from across ORD, including staff 
knowledgeable in environmental sampling and analysis, microbiology, 
chemistry, risk assessment, indoor air pollution, water supply and 
environmental cleanup. Staff were not asked to relocate. Instead they 
operate as a ``virtual'' organization across seven cities, with the 
greatest concentration in EPA's two major research facilities in 
Cincinnati, Ohio and Research Triangle Park, North Carolina This 
approach was important because it enabled the organization to be 
operational almost immediately, enabling some important research 
results to be produced and delivered within two months of the 
reorganization. To further emphasize the critical nature of this work, 
EPA established a goal for the research effort to produce important 
results for key stakeholders in the emergency response, building owner 
and water utility communities within the first three years. The need 
for research beyond that time was to be evaluated at mid-point in light 
of accomplishments, the magnitude and remaining research and technology 
gaps, and needs identified by DHS and other internal and external 
clients.
    The EPA homeland security research program is focused on chemical 
and biological contaminants that could be used by terrorists including: 
weaponized and non-weaponized pathogenic bacteria and viruses, 
biochemical toxins, chemical warfare agents and certain widely-
available toxic industrial chemicals that could potentially be used in 
attacks. In addition, radiological contamination of water 
infrastructure is also being addressed. There are three primary 
components of the research effort:

        (1)  The Safe Buildings Program addresses technology and 
        methods to enable cost-effective cleanup for reoccupation 
        following contamination events;

        (2)  The Water Security Program, in close collaboration with 
        EPA's Office of Water, develops methods and technologies to 
        warn/detect an attack on water and wastewater systems and to 
        facilitate system decontamination; and

        (3)  The Rapid Risk Assessment Program develops data, methods 
        and models to rapidly characterize public health risks posed by 
        contamination events and inform decision-making on necessary 
        decontamination and cleanup goals.

    There are two important ways EPA homeland security research 
priorities have been established: (1) stakeholder/user needs input and 
(2) a comprehensive threat scenario analysis. Early on, staff 
interacted extensively with stakeholders and experts in the emergency 
response community, water industry, key federal agencies with expertise 
in chemical and biological weapons and with organizations representing 
building owners and managers. These discussions, along with an 
evaluation of lessons learned from the World Trade Center and anthrax 
letter events as well as an evaluation of known attempts to 
intentionally contaminate water systems, revealed a number of key 
research and information gaps that needed to be addressed as quickly as 
possible. Most of the early research resources available to EPA were 
directed to these consensus needs, which included work such as 
development and evaluation of anthrax sampling, analysis and 
decontamination methods; assessments of the treatability of 
contaminants in water treatment and distribution systems; establishment 
of a program to verify the performance of commercially available 
homeland security technologies, and other near-term critical needs.
    The second and more comprehensive manner in which priorities have 
been established is through the identification and analysis of threat 
scenarios. There are literally thousands of possible combinations of 
facility types, attack agents and attack methods that are possible for 
buildings and water infrastructure. Each combination (threat scenario) 
represents a range of possible consequences in terms of human health 
and economic (i.e., from clean-up, disruption) impact. The research 
program is designed to focus its attention only on the most probable, 
highest consequence events.
    In recognition of the importance of peer review, EPA submitted its 
Safe Buildings Research Plan and its Water Security Research and 
Technical Support Action Plan to the National Academies of Science. Two 
independent panels were formed and provided extensive input to enhance 
the research plans. The water panel stressed the need to quantify the 
multiple benefits and costs attributable to the proposed research. The 
buildings panel recommended that the primary focus of EPA's research be 
decontamination and disposal and that detection and containment efforts 
should be primarily targeted towards this end. Each panel also provided 
a considerable listing of specific recommendations to EPA. EPA has 
conducted an extensive analysis of these recommendations and has 
incorporated nearly all of them into our research implementation plans.
    Leveraging with other agencies and organizations is also critical 
to our success. This helps us avoid duplication, accelerate the pace of 
research outcomes and build on complementary work. Important 
collaborations have already been put in place with 17 federal research 
organizations in the Department of Defense (DOD) and Department of 
Energy (DOE), as well as with the Centers for Disease Control and 
Prevention (CDC), National Institute for Standards and Technology 
(NIST), the U.S. Geological Survey (USGS) and the Food and Drug 
Administration (FDA). In fact, nearly 35 percent of EPA's homeland 
security extramural research budget is being utilized to support over 
36 interagency projects to enhance and expand our research effort. Much 
research is also being conducted in collaboration with water industry 
associations including the Water Environment Research Foundation and 
the American Water Works Association Research Foundation.
    As stated previously, the Department of Homeland Security (DHS) is 
a critical partner for EPA's homeland security research program. Our 
primary interaction on homeland security research is with the Science 
and Technology Directorate. EPA has shared its research plans with DHS, 
and the organizations hold regular joint-briefings on the status of 
research and future plans. The most recent briefing was held last month 
in Washington. Shorter, individual project briefings are held with key 
DHS staff as important results come in. EPA and DHS have established 
and also co-chair the Intergovernmental Building Protection and 
Decontamination Workgroup that meets monthly to share information and 
help prioritize building protection and decontamination research across 
the nine participating agencies. These include DOD, DHS, EPA, 
Department of State (DOS), General Services Administration (GSA), CDC, 
U.S. Postal Service (USPS), NIST and Federal Emergency Management 
Agency (FEMA). DHS is also a member of the Distribution System Research 
Consortium established by EPA to coordinate government and non-
government research on water distribution system contamination 
prevention.
    DHS has also sought EPA review and advice on DHS funding 
priorities. EPA has contributed to topical areas incorporated into DHS 
research solicitations and has participated in proposal review panels 
for the DHS National Laboratory Program, the University Grants Program 
and the Homeland Security Advanced Research Projects Agency (HSARPA). 
At the request of DHS, EPA has submitted a number of FY 2004 research 
proposals to supplement EPA efforts in building decontamination, water 
security and risk assessment. Decisions on these proposals are 
currently under review at DHS. EPA and DHS also recently agreed to 
jointly fund a Request for Applications (RFA) for research in the area 
of biological risk assessment.

SPECIFIC EPA RESEARCH COLLABORATIONS AND ACCOMPLISHMENTS

    EPA is supporting collaborative research across the Federal 
Government in all of the components of its homeland security research 
program. These components are: detection containment, decontamination/
disposal, risk assessment, commercial technology verification and 
science support to emergency response. Several examples are provided 
below for illustration.
Detection Research
    One critical need that arose from the anthrax cleanup activities in 
the postal facilities and the Capitol Hill complex is the need for 
improved, validated surface sampling and analysis protocols to inform 
decontamination decisions. EPA and CDC have collaborated to develop 
these protocols and are working in concert with the U.S. Army at Dugway 
Proving Ground to validate and modify the protocol as necessary. Drafts 
of the protocol have been provided to the response community as interim 
guidance.
    Similarly, water utilities have expressed concern for a lack of 
validated water sampling and analysis methods for chemical and 
biological terror agents. These methods are needed to detect or confirm 
attacks and inform cleanup and response decisions. The EPA NHSRC and 
the Office of Water have combined forces with the CDC and the U.S. 
Army's Edgewood Chemical and Biological Center (ECBC) to develop and 
field-validate methods for both chemical and biological agents. The 
Office of Water is also collaborating with the DOD Technical Support 
Working Group (TSWG) to evaluate concentration/extraction methods for 
chemical contaminants in water. Furthermore, a cross-government work 
group, led by ORD, has just completed the development of a Compendium 
of Standardized Analytical Methods for Use During Homeland Security 
Events. The Compendium identifies standard and best available methods 
for analysis of chemical and biological agents in water, dusts, and 
aerosols. It is an important step in establishing a national 
environmental sampling and analysis capacity for responding to terror 
events.
    Finally, EPA and the U.S. Army Research Laboratory are jointly 
conducting research to adapt laser-based detection methods for rapid 
and specific identification of biological agents on surfaces. This 
research, which is being conducted at EPA's research facility in North 
Carolina, is showing great promise for improving the speed and cost of 
clean-up.
Containment Research
    In the event of biological or chemical attacks on buildings or 
water, it is important to understand how to contain the release and 
minimize the potential human exposure and the amount of infrastructure 
that will potentially need to be decontaminated. In the case of water 
systems, our attention is focused on understanding the effectiveness of 
existing water treatment systems to deactivate or remove contaminants 
introduced into water systems. EPA and CDC are collaborating to jointly 
determine the effectiveness of various disinfection methods for 
deactivating biological warfare agents including anthrax. Much of the 
work is nearing completion, and key findings relating to particular 
water system vulnerabilities have been provided to the EPA Office of 
Water and DHS. The Office of Water is also collaborating with the DOD 
Office of Naval Research to develop mobile treatment units for 
providing alternative water supplies in the aftermath of contamination 
events.
    Once contaminants enter water systems, containment strategies rely 
on the ability to predict where and how fast contamination will 
propagate. EPA is conducting extensive in-house research to adapt EPA-
developed water distribution models to better understand fate and 
transport of contamination in complex water distribution systems. The 
DOE Argonne National Laboratory and the Sandia National Laboratory are 
also collaborating with EPA to enhance the capabilities of the model 
and to develop approaches to optimize the cost and deployment of early 
warning sensors in distribution systems. The U.S. Geological Survey and 
EPA have agreed to team in the field deployment and testing of these 
technologies.
    In the case of building contamination, EPA and the DOD-sponsored 
Technical Support Working Group are collaborating to evaluate the 
effectiveness of filtration systems for removal of chemical and 
biological agents from air entering building air supplies. These 
systems will provide an important first line of defense against large 
scale external releases of many chemical and biological agents. EPA has 
also interacted extensively with the DOD Immune Buildings Program to 
extend military facility protection technology to domestic building 
contaminants.
    We have also been able to take advantage of complementary work 
being conduced under ORD clean air research to enhance our homeland 
security research efforts. EPA building air flow and ventilation models 
developed as part of our indoor air pollution research program have 
been adapted to both create building air contamination simulation 
models for threat scenario analysis and evaluate the fate and transport 
of contaminants in buildings for a number of key contaminants and 
attack methods. This work will be synthesized into an interim Building 
Protection Design and Operational Guidance Manual that will be provided 
to building owners in 2005. Similarly, an urban canyon modeling field 
study underway in mid-town Manhattan at the time of the World Trade 
Center collapse enabled ORD to rapidly deploy on-the-ground air 
sampling in lower Manhattan and incorporate these and other air quality 
data into a detailed plume model. This model has since been enhanced to 
provide an important tool for simulating and predicting the fate and 
transport of hazardous air pollutants in urban terrain following large 
scale outdoor releases.
Decontamination Research
    Decontamination research is a major focus of EPA's homeland 
security research program. EPA has significant scientific and 
operational experience in cleanup methods for industrial chemicals in 
the environment, and the military has developed a substantial body of 
knowledge and technology for decontamination of personnel, equipment 
and facilities in warfare situations involving biological and chemical 
weapons agents. The challenge is to extend this common knowledge to the 
relatively untested domestic application of decontamination of public 
buildings and water systems. In the case of buildings, techniques for 
hard surface decontamination are available, but methods for porous 
surfaces, sensitive or high value property and large areas are 
relatively unproven and expensive. Questions remain over the 
effectiveness, design and operational requirements, cost, and potential 
secondary health effects of available techniques such as chlorine 
dioxide and vaporous hydrogen peroxide fumigation. To help address 
these needs, EPA is working with the U.S. Army Edgewood Chemical and 
Biological Center to conduct studies of the effectiveness of these 
techniques for important organisms, surface types and environmental 
conditions. This work, in combination with lessons learned in the 
Capitol Hill and postal facility cleanups, will lead to interim design 
and operational guidance that will enable more optimized cost-effective 
decontaminations in the future. In addition, EPA's Office of Pesticide 
Programs is collaborating with ORD and the Food and Drug Administration 
to develop methods to more quickly, effectively and even prospectively 
develop the data necessary for EPA to make crisis exemption 
determinations for fumigants and anti-microbials as required under the 
Federal Insecticide Fungicide and Rodenticide Act (FIFRA).
    While shock disinfection and flushing are possible decontamination 
methods for water systems, little is known about the effectiveness of 
these methods and others that will need to be developed for 
decontaminating biological and chemical weapons agents or non-
traditional persistent water contaminants in water systems. EPA has 
greatly expanded its unique in-house water system research facilities 
to initiate detailed studies of the effectiveness of available and 
emerging decontamination methods including chlorination, surfactant and 
enzyme treatment approaches. We are collaborating with the American 
Water Works Association Research Foundation to survey existing 
decontamination performance information and identify innovative 
approaches. EPA is also collaborating with the U.S. Army Edgewood 
Chemical and Biological Center, the Army Corps of Engineers and with 
the National Institute of Standards and Technology to evaluate 
decontamination methods for both chemical and biological agents in 
distribution systems and for internal building piping and appliances.
    The goal of EPA's decontamination research is to produce interim 
design and operating guidance for decontaminating buildings and water 
systems by the end of 2005. Longer-term research will need to focus on 
broadening the suite of chemicals and biological agents for which data 
are available, evaluating evolving innovative technology, field 
validating the effectiveness and cost of decontamination methods and 
examining methods for decontamination of outdoor areas.
    In addition to these efforts, the EPA Office of Radiation and 
Indoor Air is working on improvements in radiological detection and 
decontamination methods. This work includes development of a portable 
radiological scanning technology for gamma radiation isotopic analysis, 
``rapid alpha'' technology for quick plutonium detection, and 
development of a series of documents to update technical guidance on 
radiological cleanup and decontamination methods. Portions of this work 
are being conducted in collaboration with the DOE Savannah River 
Laboratory.
    EPA is working with a number of other agencies, in addition to DHS, 
to develop improved methods to quantify the dose received by people 
exposed to harmful gases and particles in urban areas, both outside and 
inside buildings. For example, EPA and NOAA are collaborating on wind 
tunnel modeling in support of Homeland Security activities, focusing on 
Manhattan and parts of the National Capital Region (specifically, the 
Pentagon) to assist in dispersion forecasts.
Risk Assessment Research
    EPA's risk assessment research program is focused on two key 
homeland security needs: methods to rapidly assess the potential human 
health risk associated with chemical and biological attacks, and 
identification of appropriate methods and data to support cleanup level 
determinations. EPA has considerable experience in health effects and 
environmental risk assessment. While much information exists regarding 
the toxicity and hazard associated with chemical and biological warfare 
agents, considerable effort is needed to adapt information collected 
for warfare situations and transform it in a scientifically transparent 
way for use in domestic contamination situations. EPA has established 
collaborations with DOD and the DOE Argonne National Laboratory to help 
with this effort. Both the Edgewood Chemical and Biological Center and 
the Center for Health Promotion and Preventive Medicine (CHPPM) are 
working with EPA to develop rapid risk assessment methods for civilian 
inhalation exposures to microbial agents. Working with the Argonne 
National Laboratory, EPA is working to develop short-term (1-30 day) 
exposure level inhalation guidance for a list of key chemicals and 
chemical agents. Further, we are collaborating with the National 
Academies of Science and the EPA Office of Pollution Prevention and 
Toxic Substances to develop Acute Exposure Guideline Levels (AEGLs) for 
inhalation exposures to key chemical warfare agents. All of these data 
are critical inputs to a rapid risk assessment expert system that EPA 
is developing for use by the emergency response community. Similarly, 
this information supports a cross-EPA effort that the Deputy 
Administrator has asked me to direct to establish cleanup levels for 
chemical and biological agents that may be used in terror attacks. This 
initiative is also being coordinated with a cross-government effort 
under the leadership of the Office of Science and Technology Policy 
(OSTP) Subcommittee on Standards.
Technical Support & Technology Verification
    Finally, EPA is also providing direct scientific support to the 
emergency response and technology user community. EPA has augmented its 
existing Environmental Technology Verification (ETV) Program to rapidly 
provide objective performance evaluation information for commercially 
available detection, containment and decontamination technologies 
applicable to homeland security needs. By the end of this calendar 
year, over 40 technologies will have been evaluated, including six hand 
held detectors for cyanide in water, ten air filtration technologies 
and eight rapid toxicity monitors for water. Results of evaluations to 
date are posted on EPA's ETV web site.
    In addition, EPA's research and development program has established 
a capacity to provide real-time science and engineering support to 
EPA's emergency response and cleanup personnel in the Office of Solid 
Waste and Emergency Response and in our ten Regional Offices. A 24-hour 
seven day a week emergency call-in line has been established and three 
``Red Teams'' composed of ORD technical staff have been formed and 
trained to be available to provide direct support in areas such as 
sampling and analysis, microbiology, engineering, decontamination, 
medicine, health effects and exposure modeling. ORD staff also 
participate with the EPA Emergency Response Teams in national training 
and exercises. ORD will also work closely with the new EPA National 
Decontamination Team to validate decontamination technology and design 
guidance being developed by the NHSRC.
    The Office of Research and Development continues to provide advice 
to the anthrax cleanup efforts at USPS facilities and the Department of 
State (SA-32), as well as the recently initiated cleanup of the 
American Media International (AMI) Building in Florida. ORD staff also 
provided rapid support to the cleanup effort for the Ricin attack on 
the Senate Office Building in the form of preliminary risk assessment 
and sampling and analysis methods.

Future Homeland Security Research at EPA

    There is a critical need for delivering technical information and 
guidance to users in the water industry and emergency response 
community as soon as possible. In recognition of this, EPA established 
a goal at the formation of its homeland security research program to 
deliver as much of the important guidance as possible within three 
years. We recognized that this was a difficult charge, but felt it was 
critical to setting the necessary pace and focus for this important 
research. We also recognized that it was likely that not all of the 
critical research could be completed in that time frame and committed 
to a mid-term evaluation of the need to continue beyond the three 
years. This evaluation has been underway for several months.
    The analysis has focused on two key elements. The first involves 
assessing stakeholder and user community views of the completeness and 
relevance of ORD outputs delivered or anticipated by the end of our 
third-year. ORD has consulted on this with individual EPA Program 
Offices and Regional Offices, as well as with DHS and a broad range of 
other Federal agencies and external users. This assessment also 
included a half-day meeting with over two dozen key clients and 
partners in April to gather additional input. The overall stakeholder 
conclusions that have resulted from these discussions have been that: 
(1) EPA efforts to establish a sound, focused and responsive homeland 
security research program in only 18 months are impressive; (2) the 
guidance and information developed and anticipated are relevant and 
important steps toward protecting facilities and responding to chemical 
and biological terror attacks; (3) the scope and magnitude of remaining 
and evolving science needs are significantly beyond what ORD can 
provide in three years; and (4) EPA should continue its research beyond 
three years to improve protection and decontamination guidance and 
begin to address the new and evolving needs identified by the 
participants.
    The second element in the analysis involved an evaluation of 
strategic homeland security research priorities at the Federal level. 
This included an examination of DHS science and technology (S&T) 
priorities and expectations of EPA, as well as EPA taskings and related 
S&T needs associated with Homeland Security Presidential Directives, 
specifically HSPD-7, -9 and -10. From these examinations, it is clear 
that EPA will have continuing and, in fact, increasing responsibilities 
to support the national effort. These include lead responsibilities for 
coordinating water surveillance for infrastructure protection and 
decontamination following chemical and biological agent terror attacks. 
Each of these responsibilities carries with it the need for research to 
develop improved data, technology and protocols for characterizing the 
environmental impact of an attack; assessing risk; and determining 
appropriate, cost-effective approaches for response and 
decontamination.
    EPA is in the process of analyzing and considering all of these 
inputs and will work closely with the Homeland Security Council and the 
Department of Homeland Security to determine what future level of 
effort is needed.

SUMMARY

    EPA's homeland security effort is strategically designed to address 
the most important scientific and technological gaps facing decision-
makers charged with protecting buildings and water systems from 
possible chemical and biological terror attack. Program priorities are 
threat-based and closely coordinated with national priorities 
established by the Department of Homeland Security. EPA's research is 
based upon strong scientific peer review and is highly leveraged with 
the skills and resources of nearly two dozen key federal research 
organizations. We are rapidly developing relevant, user-oriented tools, 
data, and technology to help detect, contain, decontaminate and 
understand the potential health risks associated with chemical and 
biological terror attacks on buildings and public water supplies.
    I thank you for this opportunity to describe our scientific and 
technological efforts in homeland security.

                       Biography for Paul Gilman
    In April 2002, Dr. Gilman was sworn-in to serve as the Assistant 
Administrator for the Office of Research and Development which is the 
scientific and technological arm of the Environmental Protection 
Agency. In May 2002, he was appointed the Agency Science Advisor. In 
this capacity, he will be responsible for working across the Agency to 
ensure that the highest quality science is better integrated into the 
Agency's programs, policies and decisions.
    Before his confirmation, he was Director, Policy Planning for 
Celera Genomics in Rockville, Maryland. Celera Genomics, a bio 
information and drug discovery company, is known for having decoded the 
human genome. In his position Dr. Gilman was responsible for strategic 
planning for corporate development and communications.
    Prior to joining Celera, Dr. Gilman was the Executive Director of 
the life sciences and agriculture divisions of the National Research 
Council of the National Academies of Sciences and Engineering. The 
National Research Council is the operating arm of the National 
Academies which were chartered to provide independent advice to the 
government in matters of science and engineering. Dr. Gilman's 
divisions focused on risks to health and the environment, protection 
and management of biotic resources, and practical applications of 
biology including biotechnology and agriculture.
    Before Joining the National Research Council, Gilman was the 
Associate Director of the Office of Management and Budget (OMB) for 
Natural Resources, Energy, and Science. There he coordinated budget 
formulation, regulatory, and legislative activities between agencies 
such as the Environmental Protection Agency, National Science 
Foundation, Agriculture, and Energy with the Executive Office of the 
President.
    Dr. Gilman served as Executive Assistant to the Secretary of Energy 
for technical matters before joining the OMB. His responsibilities 
included participating in policy deliberations and tracking 
implementation of a variety of programs including the Department's 
environmental remediation and basic science research.
    Gilman has 13 years of experience working on the staff of the 
United States Senate. He began that time as a Congressional Science 
Fellow sponsored by the American Association for the Advancement of 
Science in the office of Senator Pete V. Domenici. Later, as the Staff 
Director of the Subcommittee on Energy Research and Development, he was 
involved in the passage of the Nuclear Waste Policy Act of 1982 and 
oversight of energy technology and environmental research. Later he 
served as the chief-of-staff for Senator Domenici.
    Dr. Gilman matriculated at Kenyon College in Ohio and received his 
A.B., M.A., and Ph.D. degrees in ecology and evolutionary biology from 
Johns Hopkins University, Baltimore, Maryland.

    Chairman Ehlers. Thank you very much. Dr. Albright.

     STATEMENT OF DR. PENROSE (PARNEY) ALBRIGHT, ASSISTANT 
 SECRETARY, SCIENCE AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF 
                       HOMELAND SECURITY

    Dr. Albright. Good morning, Chairman Ehlers, Congressman 
Udall, and Members of the Subcommittee on Environment, 
Technology, and Standards. I am pleased to have this 
opportunity to appear before you today to report on how the 
Science and Technology Directorate of the Department of 
Homeland Security and the U.S. Environmental Protection Agency 
are coordinating on homeland security research and development 
activities in the areas of water systems and building security.
    I commend you for your interest in and support of the 
federal effort to protect the Nation's water supply and 
critical facilities from chemical, biological, or radiological 
nuclear attack, and ensuring that the proper systems are in 
place to respond effectively in the event of any such attack.
    A chemical, biological, or radiological, or nuclear attack 
against our water supply or on private or public facilities 
could result in--clearly in large scale loss of life or 
economic damage. Central to the Department's mission is to 
reduce security threats and to produce--and to protect the 
United States from terrorist attacks, including those directed 
at our water supply and buildings, and we are committed to 
working with agencies at all levels to prevent any such attack 
from occurring.
    Building security is also an integral part of any plan to 
protect the homeland. We know that landmark buildings and 
buildings that draw large numbers of people are attractive 
targets for terrorists. The nation needs new and improved 
technologies to protect these structures. Homeland Security 
Presidential Directive 10, HPSD-10, which deals with biodefense 
in the 21st Century, was issued last month and provides a 
comprehensive framework for biodefense, and among other things, 
delineates the roles and responsibilities of federal agencies 
and departments in continuing their important work in this 
area.
    Decontamination and water security are key elements of the 
President's integrated biodefense strategy, and the need for 
biodefense and the challenges we face implementing it are 
great. Part of that, of course, is affordable, timely 
approaches for cleaning up contaminated areas, and that remains 
a serious challenge. Congressman Udall, for example, pointed 
out the issues surrounding the decontamination of the Brentwood 
Post Office following the anthrax mail events of October 2001. 
And recent studies have identified the need for more effective 
measures to safeguard our water supply against such attacks.
    These three presidential directives designate the agencies 
responsible for leading and supporting the effort to address 
the potential threat of biological attacks, attacks on our 
water supply, and affordable, timely decontamination should 
such attacks occur. Specifically, HSPD-7, which addresses 
critical infrastructure protection, HSPD-9, which is focused on 
agricultural and food protection, have assigned EPA as the lead 
agency to enhance the protection of the Nation's water supply. 
HSPD-10, biodefense, has likewise designated EPA as the lead 
agency to coordinate the development of strategies, guidelines, 
and plans for decontamination following a biological attack. We 
fully support the EPA in these efforts.
    Recognizing the multidisciplinary nature of the challenges 
before us, these presidential directives also specify that 
other departments and agencies will support EPA in these 
efforts. That is, while EPA provides overall leadership and 
coordination, the Departments of Homeland Security and Defense 
will assist by providing needed detection and decontamination 
technologies to EPA, as well as integrated systems approaches 
to these issues.
    And the Department of Health and Human Services assists in 
the understanding of the environmental microbiology and 
resulting health effects. The actual coordination of these 
roles and efforts is done at multiple levels and through 
multiple vehicles, that include high level interagency policy 
and planning committees and working groups.
    The Department of Homeland Security's Science and 
Technology Directorate is working very closely with EPA's 
National Homeland Security Research Center in all of these 
venues.
    Water security and building decontamination are the most 
two significant areas of coordination and collaboration for EPA 
and DHS. The EPA's Safe Buildings Program addresses three areas 
of importance to near-term improvements in building 
decontamination. These include materials compatibility, of the 
current leading candidates for decontamination, with the 
various materials present in a building, the appropriate 
sampling techniques and protocols for sampling the variety of 
porous and non-porous surfaces encountered in a building to 
assist in any residual decontamination effects, issues. And 
methods for reducing the amount of contaminated waste.
    DHS has a number of complementary activities in these 
areas. In collaboration with EPA, the Centers for Disease 
Control, NIOSH and San Francisco International Airport, we are 
conducting an integrated systems program to develop pre-
approved plans and decontamination agents for restoration of 
airports as a first step in extending these capabilities to a 
broad range of facilities.
    In support of this, DHS has commissioned the National 
Academy of Sciences to conduct a study titled ``How Clean is 
Safe?'' to better aid us in our understanding and--for 
establishing appropriate cleanup levels for the biological 
decontamination of public facilities.
    DHS is also sponsoring studies on improved gas phase 
decontamination technologies and delivery systems. An important 
vehicle in coordinating these and other activities is the 
Building Protection Working Group, co-chaired by DHS and EPA, 
and it also includes DOD and DARPA, the Defense Advanced 
Research Projects Agency. Another area of focus addresses 
radiological decontamination and DHS Federal Government 
requirements for research, development, test, and evaluation 
needs in this area.
    EPA's strong R&D program in water security encompasses 
threat assessments and prioritization, modeling the flow of 
water with potential contaminants through complicated water 
distribution systems, and field testing and refining these 
models in real world systems and collaborations, at the U.S. 
Army's Edgewood Chemical and Biological Defense Center. To 
complement these activities on the biological front, DHS is 
conducting an end-to-end systems study of high treat water 
contamination scenarios to characterize all aspects of the 
problem, from agent introduction through detection and 
response, to decontamination and restoration. DHS has also been 
getting an integrated systems demonstration to explore and test 
concepts for near-term monitoring architectures, again, in 
close coordination the EPA.
    In addition to these targeted water security activities, 
DHS was BioWatch, a major biological threat detection program, 
operating in numerous U.S. cities. Many of the concepts and 
approaches used in BioWatch, we believe are applicable to water 
monitoring systems that will be available in the near and 
longer term. And as with the building protection activities, an 
active working group, the Water Distribution Systems Research 
Consortium, is focusing on this issue.
    Because of a sense of national urgency, the activities I 
have addressed here have focused on optimizing currently 
available technology for improved near-term solutions. They do 
not address the longer term needs inherent in an affordable and 
timely integrated biodefense, and the responsibilities actually 
called out in the HSPD-10. For example, building 
decontamination systems under development today will still be 
too costly and slow for large scale cleanups, although they are 
a significant improvement over those used for Brentwood.
    Furthermore, the underlying experimental database for 
setting cleanup standards and performing risk assessments is 
extremely sparse. Little is known, for example, about the dose 
response levels at which individuals get sick, or about the 
persistence of an agent, once it is released into indoor and 
outdoor environments, or in our water distribution systems, yet 
these are critical to executing the responsibilities called out 
in HSPD-7, -9, and -10.
    In closing, I would like to say that the Department looks 
forward to continuing to support EPA in its role as lead agency 
in the areas of building decontamination and water security. We 
view these collaborative work as necessary and vital for 
safeguarding the health and safety of the American public, and 
an important part of our mission, to prevent, protect against, 
respond to and recover from acts of terror against the Nation.
    Mr. Chairman, Members of the Subcommittee, this concludes 
my remarks.
    [The prepared statement of Dr. Albright follows:]
                 Prepared Statement of Penrose Albright
    Good morning Chairman Ehlers, Congressman Udall, and Members of the 
Subcommittee on Environment, Technology and Standards.
    I am pleased to have this opportunity to appear before you today to 
report on how the Science and Technology Directorate of the Department 
of Homeland Security (DHS) and the U.S. Environmental Protection Agency 
(EPA) are coordinating on homeland security research and development 
activities in the areas of water systems and building security. I 
commend you for your interest in and support of the federal effort to 
protect the Nation's water supply and critical facilities from 
chemical, biological or radiological/nuclear attack and to ensure that 
the proper systems are in place to respond effectively in the event of 
any such attack.
    A chemical, biological or radiological/nuclear attack against our 
water supply or private public facilities could result in a large-scale 
loss of life and be detrimental to our economy.
    Central to the Department's mission is to reduce security threats 
and to protect the United States from terrorist attacks--including 
those directed at our water supply and buildings. We are committed to 
working with federal, State, tribal, and local authorities to prevent 
any such attack.
    Building security is also an integral part of any plan to protect 
the homeland. We know that landmark buildings and buildings that draw 
large numbers of people are attractive targets for terrorists. The 
Nation needs new and improved technologies to protect these structures.

Homeland Security Presidential Directive 10

    Homeland Security Presidential Directive 10 (HSPD-10)--Biodefense 
for the 21st Century, issued last month, provides a comprehensive 
framework for the Nation's biodefense and among other things, 
delineates the roles and responsibilities of federal agencies and 
departments in continuing their important work in this area. 
Decontamination and water security are key elements in the President's 
integrated biodefense strategy. The need for biodefense and the 
challenges we face implementing it are great:

        <bullet>  Biological attacks could potentially contaminate 
        significant portions of an urban area;

        <bullet>  Affordable, timely approaches for cleaning up 
        contaminated areas remain a serious challenge. For example, the 
        decontamination of the Brentwood Post Office, following the 
        anthrax-in-the-mail events of October 2001, cost about $100 
        million, and took over a year to accomplish.

        <bullet>  Recent studies have identified the need for more 
        effective measures to safeguard our water supplies against 
        attacks.

Roles and Responsibilities

    Three presidential directives designate the agencies responsible 
for leading and supporting the effort to address the potential threat 
of biological attacks, attacks on our water supply, and affordable 
timely decontamination should such attacks occur. Specifically, HSPD-7 
Critical Infrastructure Identification, Prioritization and Protection 
and HSPD-9 Defense of United States Agriculture and Food, have assigned 
the EPA as the lead agency to enhance the protection of the Nation's 
water supply. HSPD-10 Biodefense in the 21st Century, has likewise 
designated EPA as the lead agency to coordinate the development of 
strategies, guidelines and plans for decontamination following a 
biological attack. We fully support the EPA in these efforts.
    While the HSPDs designate EPA as the lead in these areas, they also 
specify the other departments and agencies that will support EPA in 
these efforts. The directives recognize the multi-disciplined nature of 
the challenges before us and the need to effectively utilize the 
particular expertise and capabilities of the other departments and 
agencies. Thus while EPA provides overall leadership and coordination, 
the Departments of Homeland Security and Defense will assist by 
providing needed detection and decontamination technologies to EPA as 
well as integrated systems approaches; and the Department of Health and 
Human Services can assist in the understanding of the environmental 
microbiology and the resulting health effects.
    The actual coordination of these roles and efforts is done at 
multiple levels and through multiple vehicles that include high-level 
interagency policy and planning committees, interagency working groups 
on specific project areas, and collaboration on individual projects. 
The DHS Science and Technology Directorate is working closely with 
EPA's National Homeland Security Research Center in all these venues.

EPA and DHS Science and Technology Areas of Collaboration

    Water security and building decontamination are two significant 
areas of coordination and collaboration for EPA and DHS.
Building Decontamination and Biological Research
    The EPA's Safe Buildings program addresses three areas of 
importance to near-term improvements in building decontamination. These 
include the materials compatibility of the current leading candidates 
for decontamination with the various materials present in a building; 
the appropriate sampling techniques and protocols for sampling the 
variety of porous and non-porous surfaces encountered in a building to 
assess any residual contamination; and methods for reducing the amount 
of contaminated waste.
    DHS has a number of complementary activities in this area. DHS, in 
collaboration with the EPA, Centers for Disease Control, the National 
Institute for Occupational Safety and Health, and the San Francisco 
International Airport, is conducting an integrated systems program to 
develop pre-approved plans and decontamination agents for restoration 
of airports as a first step in extending these capabilities to a broad 
range of facilities. In support of this, DHS has commissioned the 
National Academy of Sciences to conduct a study titled ``How Clean is 
Safe?'' This study will aid in understanding and establishing 
appropriate clean-up levels for decontamination of public facilities 
affected by exposure to harmful biological agents. DHS is also 
sponsoring a number of studies on improved gas phase decontamination 
technologies and the systems to deliver them.
    An important vehicle in coordinating these and other activities is 
the Building Protection Working Group, which meets on a monthly basis. 
This working group is co-chaired by DHS and EPA and includes the 
Defense Advanced Research Projects Agency, the Department of Defense, 
the National Institute of Standards and Technology, the Centers for 
Disease Control and Prevention, the National Institute for Occupational 
Safety and Health, the United States Postal Service, and the Government 
Accounting Office.
Building Decontamination and Radiological/Nuclear Research
    DHS is also working to coordinate and resolve issues concerning 
radiological decontamination. One area of focus addresses DHS/Federal 
Government requirements for radiological and nuclear decontamination 
research, development, test and evaluation needs. We are also 
coordinating with EPA in an effort to define standards for achieving 
``clean enough'' status of target areas and water supplies following a 
nuclear or radiological attack. DHS is working with EPA to ensure that 
these standards get defined in a timely manner and to an extent that 
will be physically achievable while minimizing economic impact.

Other Federal Government Work and Collaborations

    In the area of medical treatments to contaminated people, DHS is 
coordinating with Health and Human Services to ensure that the 
necessary radiological medical diagnostic tools and treatments are 
efficaciously developed.
    In addition, DHS is collaborating with the Defense Advanced 
Research Projects Agency (DARPA) on the first phase of an integrated 
radiological decontamination program. The program will address 
radionuclide capture decontamination, wide area detection, verification 
and modeling.

Other Federal Government Work Outside of DHS

    DHS is also aware of and following the progress of several other 
efforts within the Federal Government. The Technical Support Working 
Group (TSWG) is supporting research on radionuclide fixing 
technologies. The Department of Energy has significant experience in 
radiological site clean up of its contaminated weapons facilities, and 
the Department of Defense has programs focused on decontamination of 
military assets.

Water Security

    EPA is currently performing research on identification of drinking 
water contaminants, analytical methods, monitoring systems, contingency 
planning, and infrastructure interdependencies to protect wastewater 
collection, treatment and infrastructure but has not focused previous 
efforts on new technologies for large-scale urban radiological 
incidents. EPA is also initiating a Preliminary Scoping and Assessment 
Study to better define problems related to water quality likely to be 
encountered in response to large-scale urban radiological contamination 
incidents.
    EPA's strong R&D program on water security encompasses threat 
assessments and prioritization, modeling the flow of water with 
potential contaminants through complicated water distribution systems, 
and field testing and refining these models in ``real-world'' systems 
and collaborations with the U.S. Army's Edgewood Chemical and 
Biological Defense Center. The Center performs tests with actual 
biological agents in a special constructed water distribution loop at 
that facility.
    To complement these activities on the biological front, DHS is 
conducting an end-to-end systems study of a high-threat water 
contamination scenario to characterize all aspects of the problem--from 
agent introduction, through detection and response, to decontamination 
and restoration. DHS is also beginning an integrated systems 
demonstration to explore and test concepts for near-term monitoring 
architectures.
    In addition to these targeted ``water security'' activities, DHS 
has a major program in bio-warning (BioWatch) and in developing the 
associated detection systems and the underlying biosignatures and 
assays that are key to the highly sensitive detection of biological 
agents with the very low false alarm rates that are required for an 
effective biological monitoring system. Many of the system concepts and 
approaches, as well as the specific technologies, should find direct 
applicability both in near- and longer-term water monitoring systems.
    As with the building protection activities, an active working group 
(the Water Distribution Systems Research Consortium) brings together 
researchers from the various departments and agencies with the 
appropriate user communities and national organizations.

Gaps and Future Directions

    Because of a sense of national urgency, the activities I've 
addressed here have focused on optimizing currently available 
technology for improved near-term solutions. They do not address the 
longer-term needs inherent in an affordable and timely integrated 
biodefense and the responsibilities actually called out in the HSPD-10. 
For example, the building decontamination systems under development 
will still be too costly and slow for large-scale clean-ups, although 
they are a significant improvement over those used for Brentwood. 
Furthermore, the underlying experimental data base for setting clean-up 
standards and performing risk assessments is extremely sparse. Little 
is known about the dose-levels at which individuals get sick or about 
the persistence of an agent once it is released into indoor and outdoor 
environments or our water distribution systems. Yet these are critical 
to executing the responsibilities called out in HSPDs-7, -9, and -10.

Conclusion

    In closing, I'd like to say that the Department looks forward to 
continuing to support EPA in its role as lead agency in the areas of 
building decontamination and water security. We view this collaborative 
work as necessary and vital to safeguarding the health and safety of 
the American public and an important part of our mission to prevent, 
protect against, respond to and recover from to acts of terror against 
the Nation.
    Mr. Chairman, Members of the Subcommittee, this concludes my 
remarks. I will be happy to take your questions now.

    Chairman Ehlers. Thank you. Dr. Kolb. Can you turn on your 
microphone, please?

   STATEMENT OF DR. CHARLES E. KOLB, JR., PRESIDENT AND CEO, 
                    AERODYNE RESEARCH, INC.

    Dr. Kolb. This afternoon, I am representing the National 
Research Council's committee to review the EPA's Safe Buildings 
research and development effort. Our committee performed its 
work from March through October of 2003, and we have published 
a report, which you have available, presenting our findings and 
recommendations.
    The first thing our committee did was to confirm that the 
EPA had recognized and structured their research program around 
the four logical components of an effective safe building R&D 
program. These components are detection of the chemical or 
biological agent that is used in an attack, containment of that 
agent, either during an attack or subsequent to an attack, 
during cleanup activities, decontamination of the affected 
areas of the building, and finally, disposal of cleanup 
materials and any residue from the building that was 
contaminated too badly to be left in place.
    We feel that a program based on these four components is 
very well-founded, and would be able to address the charter 
given the EPA very well. Given the short three-year term of the 
program that Congress has put in place, and the relatively 
modest level of funding available over those three years, we 
did strongly recommend that the Agency focus its R&D program on 
specific areas that would be amenable to progress in that kind 
of time scale, and also which drew on the Committee's 
traditional technology strengths.
    In particular, we urged that most of the efforts of the 
program be focused on decontamination and disposal activities, 
and that work on detection of agents be aimed only at those 
areas which supported the decontamination and disposal 
activities, and also that work on containment be restricted to 
those activities that would help contain the agent during 
decontamination and disposal activities.
    We felt that detection and containment activities that were 
aimed at modifying an attack while it took place, identifying 
an attack in real time and modifying it while it took place 
were of such longer term--or were much longer term challenge, 
and could not be effectively addressed within the time scale of 
the current program.
    We did recommend that the Agency plan for a longer term 
program, and in fact, identified in our report a number of 
research issues and areas which we felt should be addressed on 
longer than a three-year time scale.
    Finally, we did urge that the EPA reach out to activities 
within other federal agencies. At the time, our committee was 
chartered. We were well aware of important activities in DARPA 
and the Department of Energy which were quite pertinent, and we 
assumed that as DHS got organized, very important activities 
would occur there as well, and so we did recommend that the 
Agency spend more effort and resources on their coordination 
with other agencies.
    I think that is a fair summary of our report, and I would 
be happy to answer more directed questions.
    [The prepared statement of Dr. Kolb, Jr. follows:]
               Prepared Statement of Charles E. Kolb, Jr.
    Good morning Mr. Chairman and Members of the Committee. My name is 
Charles Kolb. I am President of Aerodyne Research, Inc. in Billerica, 
Massachusetts, and served as a member of the Committee on Safe 
Buildings of the National Research Council. The Research Council is the 
operating arm of the National Academy of Sciences, National Academy of 
Engineering, and the Institute of Medicine of the National Academies, 
chartered by Congress in 1863 to advise the government on matters of 
science and technology. I am here today to discuss the findings of a 
Research Council review of the Environmental Protection Agency (EPA) 
Safe Buildings Program Research Implementation Plan. This review was 
requested and sponsored by EPA. It was carried out by a committee of 
twelve experts who gave their time pro bono for the review. The 
committee members had expertise in areas including toxicology, 
chemistry, mechanical engineering, building technology, indoor air 
quality, microbiology, toxic chemical and biological agent detection, 
and aerosol distribution microphysics and dynamics. The committee began 
its work in March of 2003 and delivered its report to EPA in October 
2003. My comments are based on the results of that report.
    The committee was asked to review the EPA's Research Implementation 
Plan for its Safe Buildings Program. The plan presented to the 
committee attempted to address the three issues of (1) protecting 
building occupants during a terrorist attack that contaminates the 
indoor air with chemical or biological agents, (2) safe, efficient, and 
cost-effective decontamination of buildings that have been contaminated 
with chemical or biological agents, including disposal of contaminated 
materials, and (3) conveying information about decontamination to 
relevant stakeholders. The committee was asked to review the research 
plan and comment on whether it accurately identified the research 
issues, and appropriately prioritized and sequenced projects to address 
those research needs.
    The committee was confronted very quickly with the reality that 
given the budget and three-year time frame proposed for this program, 
the EPA had proposed a rather ambitious program. In the committee's 
judgment, the research plan as it was presented to them at the time was 
unlikely to achieve all of its goals, and the committee therefore 
determined to focus its recommendations on those that could help EPA 
prioritize within the four major program areas it had identified. Those 
four program areas--detection, containment, decontamination, and 
disposal--did encompass the major areas of research required to protect 
and decontaminate structures. However, the committee concluded that 
given the limits on time and resources, and given EPA's core skills, 
the areas of detection and containment should be scaled back and made 
subordinate to the areas of decontamination and disposal. I will 
elaborate by discussing each of the four areas in turn.
    Decontamination is an area in which EPA has considerable expertise 
from its experience with Superfund sites, brownfield projects, and with 
other programs to mitigate contamination by toxic industrial and 
agricultural chemicals. The committee saw EPA's primary role in safe 
buildings as that of providing the ability to complete restore domestic 
facilities rapidly and safely after an attack. In the short timeframe 
of the current program, the committee thought that EPA should focus on 
developing standardized test protocols for determining the 
effectiveness and performance of decontamination technologies and on 
applying those protocols to evaluate available and developing 
decontamination systems. Although the Department of Defense has test 
protocols in place for its decontamination procedures, these are not 
appropriate for use in civilian facilities where long-term occupancy 
with no adverse chronic health effects is the goal. The committee 
recommended that EPA use its existing Environmental Technology 
Verification (ETV) program to test and evaluate the performance of 
proposed decontamination systems.
    For disposal of materials post-decontamination, such as clean-up 
materials, contaminated solvents, and building materials that could not 
be fully decontaminated, the EPA program focuses on thermal 
incineration and landfills. However, thermal treatments may not be 
viable approaches in some states where air quality regulations or local 
stakeholder concerns prevent incineration of waste. EPA needs to 
analyze the layers of federal, state, and local regulations to 
understand where and in what circumstances incineration might be 
considered. The committee thought EPA should concentrate its current 
efforts in solid waste disposal on developing criteria that if met 
would permit the large volume of post-decontamination waste likely to 
be generated to be disposed of in municipal landfills. The key question 
is whether the material can be decontaminated or stabilized 
sufficiently to meet the criteria for acceptance as municipal waste 
rather than being treated as toxic waste. The EPA also needs to 
determine whether current hazardous waste disposal methods are adequate 
for handling any liquid wastes generated in the decontamination 
process.
    The area of detection is of course crucial to confirming the extent 
of contamination, and confirming the success of decontamination. 
Logically, detection spans two distinct regimes: 1) continuous, real-
time, automated instrumentation designed to sound alarms and/or trigger 
containment systems when a building is attacked, and 2) post attack 
agent detection systems designed to assess the degree of contamination 
and the success of clean-up efforts. The committee identified many 
other agencies and private firms that are involved in sophisticated 
detector and detection system development aimed at the first regime and 
felt that the small investment EPA could make in this area and its 
limited expertise with continuous, real-time detection instrumentation 
was not likely to have significant impact. In the limited timeframe and 
resources accorded to the current program, EPA has little possibility 
of making a significant contribution in ``detect-to-warn'' systems. The 
committee thought that EPA efforts in detection under the current 
program should be fully directed towards detection technology and 
standards useful for decontamination and disposal activities--that is, 
to post-event activity. EPA is highly suited to develop the standards 
for detection technology needed in decontamination and disposal 
efforts, to lead the development of test protocols and test-beds for 
these detectors, and to sponsor realistic testing for that 
decontamination/disposal detection equipment.
    Finally, the plan presented to the committee included projects 
aimed at containing agents introduced into a building in order to 
mitigate the harmful effects to building occupants. However, the vast 
number of chemical and biological agents, each with its own toxicity 
signature, and the essentially unbounded number of building types, 
creates a challenge to providing meaningful advice regarding 
containment during attack. Development of practical containment 
strategies that are broadly applicable to buildings or to classes of 
buildings requires a major research endeavor that is beyond the scope 
of the current program. However, there are real needs associated with 
containment of identified agents during post-event decontamination and 
disposal that should be addressed by the EPA's program.
    In its report the committee stressed time and again the need to 
focus the current program on goals that were realizable within its 
short three-year timeframe. However, the committee also recognized 
considerable longer-term research needs in all four of these program 
areas. In addition to carrying out a program of prioritized short-term 
research, the committee recommended that EPA include in its current 
effort a planning function for longer-term research. Longer-term 
research needed includes research:

        <bullet>  To better characterize the extent of an attack, 
        including better standards for cleanup levels, better sampling 
        methodology, and better understanding of the transport, 
        robustness, and viability of chemical and biological agents 
        across the full range of public structures,

        <bullet>  To develop methods for decontamination of sensitive 
        equipment and priceless objects, and hard-to-reach places such 
        as the interior of ductwork and the area above ceiling tiles,

        <bullet>  To evaluate of the toxicology of decontaminating 
        agents, and any toxic by-products that might be formed during 
        the decontamination process, and

        <bullet>  To better understand and improve the tools for 
        modeling building airflows, contaminant dispersal patterns, and 
        other information needed to develop practical real-time 
        containment strategies.

    In summary, the committee found that EPA had correctly identified 
the research areas that need to be addressed to enable better building 
protection, decontamination and recommissioning post-event. But the 
research implementation plan presented to the committee in 2003 was 
overly ambitious given the timeline and resources available to the 
program. The committee recommended that the EPA scale back its efforts 
within the program to those elements that could produce meaningful 
results within that timeframe, enhance collaboration and coordination 
with other federal efforts to maximize the results of the program, and 
produce a longer-term research plan that might be implemented if 
funding were made available.
    Thank you for the opportunity to present these findings to you 
today.

                   Biography for Charles E. Kolb, Jr.

EDUCATION

Ph.D. in Physical Chemistry, Princeton University, 1971
M.A. in Physical Chemistry, Princeton University, 1968
S.B. in Chemistry, Massachusetts Institute of Technology, 1967

EXPERIENCE

    Dr. Kolb is the President and Chief Executive Officer of Aerodyne 
Research, Inc.; he joined Aerodyne as a Senior Research Scientist in 
1971. At Aerodyne, his personal areas of research have included 
atmospheric and environmental chemistry, combustion chemistry, chemical 
lasers, materials chemistry, and the chemical physics of rocket and 
aircraft exhaust plumes. He is the author or co-author of over 160 
archival publications in these fields.
    Dr. Kolb has been a member of numerous government and National 
Academy of Sciences/National Research Council committees dealing with 
atmospheric and environmental chemistry issues and was recognized as a 
National Associate of the National Academies in 2003. He received the 
1997 Award for Creative Advances in Environmental Science and 
Technology from the American Chemical Society. He has been elected a 
fellow of the American Physical Society, the Optical Society of 
America, the American Geophysical Union, and the American Association 
for the Advancement of Science; and has served as the atmospheric 
sciences editor of the journal, Geophysics Research Letters (1995-
1999).

    Chairman Ehlers. Thank you very much. Dr. Baecher. Would 
you turn on your microphone, please?

 STATEMENT OF DR. GREGORY B. BAECHER, PROFESSOR AND CHAIRMAN, 
 DEPARTMENT OF CIVIL AND ENVIRONMENTAL ENGINEERING, UNIVERSITY 
                          OF MARYLAND

    Dr. Baecher. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. Thank you for this opportunity to be here to 
discuss our nation's water security.
    I am representing the National Research Council Panel On 
Water Systems Security Research. That panel conducted its 
review of the April 2003 Draft Plan from EPA, and my comments 
refer to that version of the plan.
    You will notice we have heard this afternoon from Dr. 
Gilman that there has been considerable work since the time of 
this review, and that work is ongoing. At the Committee's 
request, my remarks this afternoon address two things. First, 
our key findings and recommendations, as presented in the 
report, and second, where there are sufficient--whether there 
is sufficient collaboration among EPA and other interests to 
ensure that the research agenda is focused.
    But first, turning attention to our key findings, given the 
urgency under which EPA is working, the panel commends the 
Agency for the speed and the diligence of its efforts. The 
Action Plan contains and long and well-conceived list of needs, 
which if met would provide significant information to help 
water managers across the country respond to threats and to 
attacks.
    However, the research projects in themselves will not 
result in improved protection for our nation's water systems. 
EPA needs to prepare plans to integrate research results into 
guidance, and to recognize the need for funded implementation 
plans for water utilities across the Nation.
    The panel was cognizant of EPA's need to act quickly, and 
supports EPA's focus on building a practical program of 
research and support, emphasizing continual improvement to our 
capacity for response and recovery. The EPA's strategy to 
emphasize immediately usable and first approximation results, 
the panel thought was a sound one.
    Nevertheless, certain technology advances can only be 
accomplished through long-term research. One example is the 
interaction of different infrastructure sectors, as we were so 
painfully aware of in the national capital region in the recent 
hurricane damage.
    The plan should highlight such long-term research needs so 
that a collaboration of agencies can work to ensure that 
substantive mission-oriented research questions in water 
security are not overlooked.
    Finally, the Action Plan is silent on the financial 
resources required to complete research and to implement 
countermeasures. The value of water security needs to be 
communicated to affected parties, because increased rate 
structures or reallocations will be needed to create the 
financial resources necessary to implement countermeasures.
    The EPA should quantify benefits as well as costs of the 
proposed research, and especially identify business-enabling 
dual use benefits of security enhancements, which will provide 
net economic benefits to the Nation.
    Turning attention to the second question regarding 
collaboration among EPA, DHS, and other interests. Three 
points. In an emergency, it will be too late to discover that a 
critical activity that was thought to have been under the 
control of another agency has been overlooked. Although the 
Action Plan recognizes the importance of coordination among 
relevant agencies, presumptions are made about the activities 
and capacities of other agencies that need to be verified.
    For example, the presumption that if water contamination 
causes a notifiable disease, that disease will be picked up by 
existing health surveillance systems, implicitly assumes the 
timely reporting to local health authorities and to the Centers 
for Disease Control that may not be routinely occurring.
    Second, the special circumstances of a purposeful attack 
will require that the roles and responsibilities of various 
relevant parties, including law enforcement, be worked out 
ahead of time. The use of field and table-top exercises as 
described in the plan is strongly encouraged to help utilities 
and federal, state, and local agencies develop coordination.
    Third, developing an effective communication strategy that 
meets stakeholders' needs while addressing security concerns 
should be a high Agency priority. Consideration should be made 
as to how water security information databases will be 
accessed, who will be granted access, who will control and 
update the databases, and how the databases will be integrated 
with legacy systems.
    By way of conclusion, the drinking water research needs and 
projects identified within the Action Plan, and the panel's 
view, are lengthy and detailed, but if met, would provide added 
knowledge to help water managers respond to threats and 
attacks.
    Thank you again for the opportunity to discuss the safety 
of the Nation's waters. Drinking water is critical to the 
public health, to our nation's security, and to our economy, 
and I would be happy to answer any questions you may have.
    [The prepared statement of Dr. Baecher follows:]
                Prepared Statement of Gregory B. Baecher
    Good afternoon, Chairman Ehlers and Members of the Committee. Thank 
you for the invitation to discuss the security of our nation's water 
systems. I am Gregory B. Baecher, Professor of Civil and Environmental 
Engineering at the University of Maryland, and a member of the National 
Research Council Panel on Water System Security Research. The National 
Research Council (NRC) is the operating arm of the National Academy of 
Sciences, National Academy of Engineering, and the Institute of 
Medicine of the National Academies, chartered by Congress in 1863 to 
advise the government on matters of science and technology. The Panel 
on Water System Security Research was organized by the National 
Research Council's Water Science and Technology Board in response to an 
Environmental Protection Agency request to review EPA Homeland Security 
efforts in the areas of water systems and safe buildings.
    The consequences of a terrorist attack on the Nation's water supply 
to public health, national security, and the Nation's economic services 
could be significant. Terrorist incidents of the recent past have 
heightened concerns regarding the vulnerabilities of public water 
systems to deliberate attack. The Environmental Protection Agency (EPA) 
bears lead responsibilities for protecting water systems from terrorist 
threats, and the agency is working in partnership with Federal, State, 
and local government agencies, water and wastewater utilities, and 
professional associations to ensure safe water supplies.
    To support its water security responsibilities, the EPA developed 
the Water Security Research and Technical Support Action Plan (Action 
Plan), released in 2003, which identifies critical security issues for 
drinking water and wastewater, outlines research and technical support 
needs within these issues, and presents a prioritized list of research 
and technical support projects to address these needs. The Action Plan 
is being used by EPA to establish funding priorities for water security 
research and technical support efforts over a three-year period.
    The National Research Council's Panel on Water System Security 
Research conducted a review of the Action Plan from May through 
September of 2003. The report resulting from our studies provides an 
assessment according to the following questions: (1) has the Action 
Plan completely and accurately identified important issues and needs 
for water security; and if not, what issues and needs should be added; 
(2) are the needs appropriately sequenced; (3) are the projects 
recommended for funding in the Action Plan appropriate to meet our 
water security needs, are they correctly prioritized and sequenced, and 
is their timing realistic; and (4) overall, what changes of content or 
structure in the Action Plan are recommended to improve the 
presentation to convey more clearly the water security research and 
technical support program that is described? It should be noted that 
the panel was reviewing a work in progress and also that we functioned 
on a very fast timetable. The panel focused its review on an April 2003 
draft of the Action Plan, although the program was continuously 
maturing during the review period, and many developments have 
undoubtedly occurred since the review was completed.
    At your committee's request, my comments focus on:

        <bullet>  Key findings and recommendations of the National 
        Academies' report, A Review of the EPA Water Security Research 
        and Technical Support Plan (Parts 1 & 2); and

        <bullet>  Collaboration among EPA, the Department of Homeland 
        Security (DHS), and other interests, to ensure that EPA is 
        properly focusing its research agenda; and what steps EPA and 
        DHS should take to improve this collaboration?

KEY FINDINGS AND RECOMMENDATIONS

    Given the urgency and limited time within which EPA has been 
working on water security, our panel commended EPA for the speed and 
diligence of its efforts. Nevertheless, given time and resource 
constraints on the water security program, the panel recognized that 
EPA needed to prioritize its efforts to meet urgent needs, while 
simultaneously preserving a longer-term research and technical support 
strategy for water security and remaining mindful of the agency's other 
essential tasks that contribute to public health and security. In order 
to assist the EPA in prioritizing its water security efforts, the panel 
recommended that the EPA focus on building a practical program of water 
security research and technical support, emphasizing a continuing 
improvement in response and recovery capacity, while identifying cost-
effective countermeasures based on an understanding of the nature and 
likelihood of potential threats.
    The Action Plan contains an extensive list of drinking water and 
wastewater research and technical support needs and associated projects 
that cover many critical water security issues. However, the projects 
will not, in themselves, result in improved protection of the Nation's 
drinking water and wastewater systems. Improved protection will result 
only when the information and knowledge gained from the projects are 
integrated into funded water security plans that are implemented by 
collaborations among private and public organizations.
    The figure below suggests a framework for how individual research 
and technical support projects contained in the Action Plan could 
contribute to improved water security. Specifically, the Action Plan 
encompasses data collection and assessments; database creation; new 
scientific research, tools and methods development; and communication 
strategies. In order to assist utilities and regional agencies in 
utilizing this information, our panel suggested that a comprehensive 
guidance document be developed that would direct a utility through 
available prevention strategies, information resources, communication 
planning, and response and recovery actions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Action Plan recognizes that information is essential to 
effective response and recovery programs, but there should be emphasis 
on making this information immediately useful. If an event were to 
happen tomorrow, water systems, local and state health departments, and 
emergency response agencies would have to respond on the basis of 
whatever information was available. The ability to respond and recover 
will be a process of successive approximations that will improve as 
information and methods improve. The Action Plan should be implemented 
with this iterative process in mind.
    The panel was concerned by the management responsibilities arising 
from the Action Plan. Project managers will need to be continually 
aware of related activities inside and outside EPA to minimize 
duplication of effort and to allow updating of protocols as new data 
are generated. If projects suffer from frequent change of leadership, 
coordination will be impaired, harming essential integrating functions. 
The panel suggested that EPA implement a management plan that includes 
adequate resources and stable leadership to coordinate the many 
projects. This plan should include a schedule for reviewing the 
progress of the overall water security effort and for periodically 
reassessing priorities.
    The Action Plan is silent on the financial resources required to 
complete the proposed research and technical support projects and to 
implement the countermeasures needed to improve water security. The 
panel concluded that the EPA should attempt to quantify benefits and 
costs resulting from the proposed research and technical support 
projects, and further study should be directed to better acknowledging 
business-enabling, dual-use benefits of security enhancements. More 
emphasis is needed on communicating the value of water and increased 
water system security with the public, rate regulators, and local 
elected and appointed officials, because increased revenues through 
user-rate increases or reallocations of resources will be needed to 
create the necessary financial resources to implement such 
countermeasures.
    The panel recognized the need to act quickly to address issues of 
water security. The EPA strategy in the Action Plan to emphasize 
immediate usability and first approximations is a sound one, but 
certain research or technological advances may be accomplished only 
through long-term research investments. The panel recommended that the 
Action Plan clarify which of its research activities are short-term, 
applied efforts and highlight long-term research needs, so that a 
collaboration of agencies could work to ensure that substantive, 
mission-oriented research questions in water security are not 
overlooked.

COLLABORATION AMONG EPA, DHS, AND OTHER INTERESTS

    The Action Plan concentrates, understandably, on matters that the 
EPA has traditionally handled and for which it has expertise. While 
there have been problems of both overlap and gaps in the activities of 
the EPA and other federal agencies under ordinary circumstances, the 
lack of urgency in most cases has allowed these issues to be addressed 
over time. In the midst of an emergency, however, time may not allow 
for the discovery that a critical activity, which was thought to be 
under the control of another agency, had been overlooked due to poor 
coordination. Although the Action Plan recognizes the importance of 
coordination among relevant agencies, there are assumptions made 
throughout the Action Plan about the activities and capabilities of 
other agencies that may not be correct or may be over stated.
    The rapidity and high stakes of potential terrorist attacks on 
water supplies suggest that the EPA should pay particular attention to 
improving interagency coordination and to determining the roles, 
capabilities, and training of other agencies with regard to water 
security. The special circumstances of a purposeful attack will require 
that the roles and responsibilities of various relevant parties 
(including law enforcement, FBI, and environmental and public health 
authorities) be worked out in detail ahead of time. The use of field 
and table-top simulation exercises is necessary to help utilities and 
federal, State and local agencies develop improved coordination and 
response and recovery strategies. All personnel who would respond to a 
water system attack should be involved, including water and wastewater 
utilities, police, public health workers, and emergency medical 
personnel.
    The events contemplated by the Action Plan take place in the 
context of a potential crime. Roles and responsibilities of cognizant 
parties, including law enforcement, must be established ahead of time. 
The anthrax episodes of 2001 brought this into sharp relief. Legal 
issues related to criminal investigations, such as chain of custody, 
preservation of evidence, and control of information need to be 
considered in advance; the need for information dissemination to the 
public, to environmental response teams, and to health authorities will 
create opposing demands at critical times.
    Developing an effective communication strategy that meets the needs 
of the broad range of stakeholders, including response organizations, 
water organizations and utilities, public health agencies, and the 
media, while addressing security concerns, should be among the highest 
priorities for the EPA. Criteria for classifying and distributing 
sensitive information should be developed that recognize the need for 
all water utilities, local and state agencies, researchers and 
consultants to have access to water security information. Consideration 
needs to be taken of how the water security information databases will 
be accessed, who will be granted access, who will control and update 
databases, and how new databases will be integrated with current 
systems. The EPA should thoroughly examine the consequences of various 
levels of information security and fund formal studies on the risks and 
benefits of widely transmitting water security data (including 
involvement of a wider research community). The dangers of keeping 
information too closely guarded may, in fact, be greater than those of 
informing an ill-intentioned person.

ACTION PLAN PROJECTS AND IMPLEMENTATION

    The drinking water research needs and projects identified in the 
Action Plan are lengthy and detailed, and, if pursued, would provide 
significant information, tools, and methods to help water managers 
respond to threats or attacks. Less information is presented in the 
Action Plan regarding threats to the Nation's wastewater 
infrastructure, making it difficult to assess the adequacy of the 
proposed research. In its review of the Action Plan, the panel proposed 
revisions to the 35 water security needs and suggested two additional 
needs. The panel also evaluated the focus, priority, and timing of 123 
projects, and suggested 18 new projects.
    The Action Plan discusses how to conduct the research through 
collaborations with other organizations but at the time of the review 
did not include plans for funding this research or integrating the 
results into effective preparedness and response plans for the Nation's 
utilities. The panel concluded that an implementation plan was needed 
that would clearly articulate the roles and responsibilities of other 
organizations and federal agencies in respect to implementation of this 
research and technical support plan. Not all water security research 
and technical support guidance will be the responsibility of the EPA, 
but in order to develop effective collaborations, clear allocations of 
responsibilities are needed. In order to facilitate fast and effective 
implementation of this research plan, the panel recommended that the 
Action Plan include a thorough and up-to-date assessment of water 
security research activities that are underway in other agencies or 
organizations (e.g., the Department of Defense and universities) as 
well as a summary of related ongoing EPA efforts, beyond those outlined 
in the Action Plan.
    Plans should also be included for communicating research findings 
and distributing the tools resulting from the Action Plan projects to 
stakeholders in a timely manner. For example, risk communication is a 
critical component in an overall crisis management strategy. The EPA 
needs to consider how to incorporate the current state of the knowledge 
in risk communication into its guidance to water utilities and 
organizations.
    Again, thank you for the opportunity to discuss the safety of our 
nation's water systems. Drinking water is critical to public health and 
the Nation's security and economy. The EPA activities that were the 
subject of our studies are critical to the Nation's safety and should 
continue, considering the recommendations of our panel. I will be happy 
to answer questions you may have.

                    Biography for Gregory B. Baecher
    Gregory B. Baecher is Professor of Civil and Environmental 
Engineering at the University of Maryland, College Park. He is a member 
of the National Research Council's Water Science and Technology Board 
and a member of the Board's former Panel on Water System Security 
Research. He was formerly Professor of Civil Engineering at the 
Massachusetts Institute of Technology, and an senior executive in the 
private sector. He received a BSCE from the University of California at 
Berkeley, and M.Sc. and Ph.D. from MIT. His area of teaching and 
research is project management and risk analysis, principally in 
application to the Nation's water resources infrastructure. He is the 
author of two recent textbooks on risk assessment of dams and on 
geotechnical reliability, and is the editor of a forthcoming NATO 
advanced scientific institute proceedings on the protection of civil 
infrastructure from acts of terrorism. He has served on several NRC 
committees on water resources planning, risk analysis, and homeland 
security.

                          Disclosure Statement

PROJECT TITLE:

    EPA Homeland Security Efforts: Water Security Research and 
Technical Support

SPONSOR:

    Environmental Protection Agency

SPONSOR AWARD NO:

    68-C-03-037, Work Assignment #0-2

TOTAL POTENTIAL AWARD:

    $181,000

AMOUNT OBLIGATED:

    $181,000

                               Discussion

    Chairman Ehlers. Thank you very much. I appreciate the 
testimony, and we will now begin with the questions, and I will 
open with my questions.

         FY 2005 Building Decontamination Research Funding and 
                              Jurisdiction

    Just trying to clarify some of the issues on who does what. 
This is for Dr. Gilman and Dr. Albright. Given that the 
President's budget proposes to eliminate EPA's building 
decontamination research for Fiscal Year '05, which of your 
agencies will be responsible for building decontamination 
research in '05? I will start with Dr. Gilman.
    Dr. Gilman. The Presidential Decision Directive that Dr. 
Albright was discussing in his testimony expects the EPA to be 
the leader in a cross-agency effort at coordinating and 
implementing a strategy on decontamination, so the EPA will 
have a role in that. The exact division of labor within that is 
a point of ongoing discussion between ourselves and all of the 
other participants in that coordinating effort. So, the 
assignment in the post '05 budget is yet to be determined, but 
we would expect in the process of the '06 budget discussion, 
the exact tasks that will be undertaken by the Department of 
Homeland Security and other agencies, as well as the EPA, will 
be laid out.
    Chairman Ehlers. Let me clarify that. You are saying that 
for Fiscal Year '05, the EPA will continue to have the 
responsibility, in post '05, you are going to work out that 
division of responsibility during Fiscal Year----
    Dr. Gilman. We have an ongoing responsibility to overall 
leadership for decontamination, for the actual projects and 
programs that might fall under that as it relates to research, 
we still have to work between our agencies on who will take 
what role and in what circumstance.
    The actual efforts aimed at decontamination, for example, 
the establishment of a national decontamination team by the EPA 
are anticipated to be taking place. The question is about 
research associated with decontamination in '05. That is, what 
we did not request funds for. That doesn't mean that there will 
be no research in decontamination. There will be some 
activities that continue on within the EPA. There are ongoing 
activities in the Department of Homeland Security, Department 
of Defense, and other agencies.
    Where we go for '06 is really a part of the budget 
discussions that are underway right now.
    Chairman Ehlers. And when do you expect that to be 
completed?
    Dr. Gilman. Probably shortly before we submit to the 
Congress.
    Chairman Ehlers. Probably the day after you submit it, if 
you follow previous patterns. The question is how is the EPA 
going to be able to carry out these responsibilities in '05, 
because my understanding is there is nothing in the President's 
budget for you to do that work in '05?
    Dr. Gilman. We have been in the process of trying to 
prioritize our work, as I have said before. We have moved our 
decontamination items of highest priority to the fore. Those 
activities will be funded through the '04 budget that was 
provided by the Congress. There will probably be some work that 
carries over into '05 from that '04 level of activity. As you 
know, continued discussions between the other partners in 
homeland security and homeland security decontamination 
research are underway in order to determine who will do what in 
the '05 timeframe.
    Chairman Ehlers. Didn't the Administration remove the 
funding from the '05 budget?
    Dr. Gilman. For the Environmental Protection Agency, yes. 
Not for other agencies.
    Chairman Ehlers. No, but you will still have the lead in 
'05.
    Dr. Gilman. For coordinating and for leading the strategic 
thinking in the arena, for decontamination overall, and within 
that, the research components.
    Chairman Ehlers. Well, I am just trying to figure out where 
the money is going to come from, because, in addition to the 
EPA, I have NIST under the jurisdiction of this subcommittee, 
and they got caught in a situation like that this current 
Fiscal Year. They have just laid off 100 scientists, and they 
are still going to have huge problems.
    The Help America Vote Act is not being implemented 
properly, because NIST did not get the funding, and I don't 
want the same thing to happen to EPA. I know the President's 
budget basically said you have enough money that you can roll 
over into that, but my understanding is that money is 
obligated, and you don't have the money.
    So I am trying to clarify that. I am here to help you, in 
other words. I am not sure what you are able to say on this, 
but I just want to make sure you have enough to do your job.
    Can you enlighten me on this? Are you sure you have the 
money in----
    Dr. Gilman. Let me see if I can separate the two.
    In the arena of providing for decontamination in the event 
of an attack, providing support to private sector entities, EPA 
does have the lead for that. Our emergency response teams are 
training up for that, and a special decontamination team is 
being established in Cincinnati, Ohio.
    In the arena of research, then, to support those 
activities, we will continue to provide leadership in that 
regard. We have ongoing activities from Fiscal Years '03 and 
'04. Some of those will carry over into '05. We have not 
requested funds for '05. Just for what takes place in Fiscal 
Year '06 as it relates to the budget for research in 
decontamination for EPA, Department of Homeland Security, and 
Department of Defense. This really is the subject of a 
coordinating exercise amongst all of our departments as we 
speak.
    Chairman Ehlers. No, I understand. I'm not concerned at the 
moment about '06. It is the '05 that concerns me, and I am 
wondering where are you getting the money to pay for the 
responsibilities you have? I would hate to see those fall 
between the cracks.
    You haven't yet defined those responsibilities, but you 
will definitely have a lot of them, because, as you say, you 
are not going to start the new system until '06. So where is 
the money going to come from?
    Dr. Gilman. Well, as I say, we have been through our 
agenda, for research, and put the money toward the highest 
priority items there. So we are focusing on our high priority 
items.
    Chairman Ehlers. But are you leaving a lot of lower 
priority items out?
    Dr. Gilman. Those are the things that we will have to 
discuss with the Department of Homeland Security and other 
agencies, including the Center for Disease Control and the 
like, for who is going to do what portions of those for the 
future.
    Chairman Ehlers. All right. My time has expired. We will 
come back to that in a moment, but let me first recognize the 
gentleman from Colorado, Mr. Udall.

       Cooperative Research and Development Agreements (CRADAs) 
                               Timeframes

    Mr. Udall. Thank you, Mr. Chairman. Dr. Gilman, if I might, 
I would like to start with you and discuss CRADAs, Cooperative 
Research and Development Agreements.
    There is a small company in Colorado named HACH, Homeland 
Securities--Security Technologies, and they have been working 
on a real-time monitoring technology for drinking water 
distribution systems. I understand they have completed one 
CRADA with EPA on testing the technology, but they have now 
been negotiating with EPA for--over the last year, in order to 
do a second phase of testing.
    If I could ask you a trio of questions, why is it taking so 
long to negotiate the second CRADA, what is the current status 
of it, and then, what is the typical timeframe for negotiating 
and implementing cooperative research and development 
agreements at the EPA?
    Dr. Gilman. Why don't I start with the last first?
    What is the typical timeframe? When I arrived at the EPA, 
one of the first ones to come across my desk had been pending 
in the Office of General Counsel for two years. Fortunately, 
that is the rare CRADA. Others move much more quickly than 
that. Let me combine the status and why so long on HACH.
    It doesn't take so long when it is pretty simple and 
straightforward. As a research matter, the second CRADA, we 
signed the first formally with HACH just this morning. In the 
second CRADA, the company is interested in doing some work at a 
facility we just opened at Edgewood. It is really a new 
facility aimed at simulating water distribution systems in a 
controlled environment. We have multiple systems like that at 
our facilities in Ohio. By going to Edgewood, we could go to 
the ChemBio Center there and put in live agents, and test them 
in a safe setting, which is why we have set up a duplicate 
system there.
    In the discussions with HACH, the question is whether or 
not the technology in the system is ready to go directly into 
testing at Edgewood, or whether or not it needs some testing at 
the facilities that don't necessarily work with live agents 
right at the outset. So, the question for our scientists (and 
this becomes a scientist to scientist discussion, not a General 
Counsel to attorney question) is what is the research agenda 
that we really are looking at, what are the steps we need to do 
to really validate that the technology does what it was 
designed to do?
    Our scientists believe that we need some preliminary work 
without live agents before we go to Edgewood and do live 
agents. That is the point of discussion currently. It is not a 
question of what the lawyers say. My first indication was that 
that was the case. Now, it is a more serious and substantial 
set of questions of exactly what is the correct research agenda 
to be pursuing and proving what is a very promising technology.
    Mr. Udall. Do you have any idea when the discussions would 
be concluded?
    Dr. Gilman. I would have hoped they'd be concluded as we 
speak. I would like to have signed two CRADAs this morning, not 
just one. So it is a very high priority for us. EPA takes over 
operation of the loop at Edgewood in the June timeframe for 
some of our work, and I am very hopeful that we can do what 
work is necessary to be done outside the Edgewood setting, and 
then get to work at the Edgewood setting very soon, this 
summer, at least.

      Decontamination Restoration Turnaround Time, Standards, and 
                              Technologies

    Mr. Udall. If I could, let me focus on Dr. Kolm and Dr. 
Gilman again. I listened with some interest about the idea that 
the proper metric for decontamination restoration might be 
something on the order of one month, preferably two weeks for a 
structure similar to the Hart Office Building. Is that 
turnaround time of two weeks attainable, and what are the 
impediments to achieving the NAS goal of two weeks?
    Dr. Gilman. The first thing to take into consideration is 
the nature of the agent in question, whether it is a chemical 
agent or a biological agent, and then obviously within each of 
those categories, what is necessary in order to do the 
decontamination. On the biological side, we are currently 
working with anthrax, the toughest agent to be dealt with on 
the biological side.
    Mr. Udall. Is that the toughest agent that we could 
identify?
    Dr. Gilman. That is our surrogate, for the moment.
    Mr. Udall. Okay.
    Dr. Gilman The toughest. So we have started there. Our 
presumption is if we can clean for anthrax, we can clean for 
most anything on the biological side. That is something that, 
in the longer run, we want to expand beyond anthrax and become 
more agent-specific in our work. But for the moment, as a 
surrogate, that is where we are.
    For the most cost-effective and the most timely, we want to 
do some of those other agents, ultimately, because if you clean 
to the standards of anthrax for an agent that doesn't need 
that, there may be agents through which natural attenuation is 
the best approach. Isolate the building, leave it alone for a 
period of time, and you can re-enter. So, to run the various 
trade-offs between cost-effectiveness and timeliness, there is 
more work to be done--but it is on an agent by agent specific 
basis.
    Mr. Udall. Dr. Kolb, did you have anything on that?
    Dr. Kolb. Yes, sir. One of the things our committee did 
identify as a very high priority was that the EPA program, and 
decontamination program, spent a lot of effort identifying 
standards for cleanup. It is very important to be able to 
answer the question how clean is safe, and it is difficult to 
clean a building and recertify its occupancy if you don't have 
well set standards. The ability to thoroughly test to make sure 
that the decontaminate agents have indeed met those standards.
    We feel that the EPA has a very, very important role to 
play to set those standards for a full range of threat chemical 
and biological agents, and to develop test protocols to test 
decontamination materials and detection schemes, so that it 
will be straightforward in the event of another attack to 
determine whether or not the building has, indeed, been cleaned 
up adequately and has met the standards that were preset for 
that cleanup.
    Chairman Ehlers. The gentleman's time has expired. Dr. 
Burgess.
    Mr. Burgess. Thank you, Dr. Ehlers. Thank you for convening 
this hearing. I apologize for being late. Dr. Gilman, in your 
written testimony, under technical support and technology 
verification, you talk about over 40 technologies that have 
been evaluated. Now, as a practical matter, are those things 
that have been evaluated and found to be successful? What 
number from that group have we found actually do have 
commercial utility in cleaning up a noxious agent or a toxin?
    Dr. Gilman. Let me describe the nature of the program. It 
is not a program aimed at giving an EPA seal of approval. It 
really is a verification program. We run the different 
technologies against a standardized protocol, and determine 
their performance, and then provide that information to the 
users of the technology. For example, our very first effort was 
in the area of looking at hand-held cyanide detectors for water 
utilities that were very interested in a portable capability of 
measuring cyanide.
    The program ran a standard set of protocols, the 
performance of the different instruments was laid out there, 
and that now has been pushed out through a formalized 
communication process through our Office of Water at the EPA to 
the agencies in question. In the arena of actual 
decontamination equipment, we are really just at the front end 
of doing that technology verification effort.
    The work at Edgewood that I was talking about in the water 
side is paralleled by some efforts that we are collaborating 
with the Edgewood Chemical Biological Center on, looking at 
building decontamination technology, and it is, again, the 
same. Hopefully, we will get to the point where we have the 
same kinds of results, where we have verified the performance 
of different approaches, and then we allow the performers to 
select the technology that is most appropriate for their needs.
    Mr. Burgess. Late last year, I did a field hearing on 
nanotechnology, right after the President signed his 
nanotechnology bill. I did a field hearing at the University of 
North Texas in Denton, and some of the scientists there talked 
about the use of nanotechnology for decontamination, and using 
buckyballs to surround toxins or noxious elements. Is that 
something that is being looked at as well?
    Dr. Gilman. We have actually been running a grants program 
for several years now in the nanotechnology arena, and the 
original focus was on the use of nanotechnology for remedial 
action, which you know, is a step along in the process of what 
we are talking about here, decontamination. We have also been 
funding efforts looking at it by way of detection, for example, 
and in some instances, a combination of both detection and 
decontamination.
    So there are some very real possibilities there.
    Chairman Ehlers. Thank you. The gentleman's time has 
expired, and we will begin a second round of questioning, and 
first, I wanted to get back to you, Dr. Gilman. Still trying to 
clarify the budget issues, and as I said, my concern is I want 
to make sure you have the money to do your job. Is it true, and 
I have been told that you are already scaling back some of your 
planned Fiscal Year '04 research funding, because the money to 
complete the research would not be available in Fiscal Year 
'05. Is that correct, and if so, can you give me some examples?
    Dr. Gilman. As I mentioned, our effort to prioritize the 
various items on our research agenda, has been underway. We 
have moved some items to the front of the list. We have taken 
others off the list. So there are some projects that are off 
the list. I would be happy to provide you a detailed listing of 
those things for the record.
    I mentioned in my testimony that we had done an analysis of 
safe havens in homes. Examples include the notion of using 
plastic and duct tape and, as an aside, when that work is 
published, after it has been peer-reviewed, I think you will be 
surprised at the efficacy of that approach. But we had also 
contemplated evaluating that approach in non-residential 
settings. That is the kind of thing that we have put to a lower 
priority, and will not be pursuing because of our 
prioritization, and generally speaking, a number of things that 
we have proven out at the bench level, if you will, or in 
simulation, that we might have done some field testing to 
further validate, or things that have fallen to the lower 
priority.

             Field Validation of Indoor Air Exposure Models

    Chairman Ehlers. Well, I have a partial list here of things 
that I have learned about. First, is it true that EPA has 
canceled plans in Fiscal Year '04 to begin field validating. 
This may be the one you just referred to, an indoor air 
exposure model to estimate human exposure to chemical and 
biological contaminants from an attack, because the funding 
will not be available to complete the work in the fifth year. 
Is that one of those?
    Dr. Gilman. That is the model that we have been using in 
our simulations to try and prioritize research, yes.
    Chairman Ehlers. And so you are canceling plans to begin 
the field validation.
    Dr. Gilman. For the field validation, yes.
    Chairman Ehlers. And are you confident enough that the 
model is correct so you don't have to field validate it?
    Dr. Gilman. Ultimately, we were hoping to do that field 
validation by way of creating a fairly simple user tool for 
building owners and operators. This might be a web-based tool. 
It might be a downloadable tool. Something for them to use in 
interpreting the guidance that we are going to be providing 
them on building operation and building contamination and 
decontamination. Without that field validation, we probably 
won't make that effort to make it a tool, but there may be 
other opportunities for us with other agencies to do that kind 
of work.
    Chairman Ehlers. All right. Also, is it true that you have 
canceled plans to begin looking at threat assessments and 
exposure simulations for events other than the highest 
consequence event, because funding will not be available.
    Dr. Gilman. Well, we have turned our focus to the 
potentially highest consequence event, as a matter of 
prioritizing our research needs. So, you know, in effect, how 
far down you go down the list of your priority needs based on 
threat assessment is indeed dictated by resources, but where 
you make those cutoffs is not just a resource question. We have 
been trying, through doing our simulations, to make some 
judgment as to the likelihood and the potential consequence. 
Low consequence items, items that are of high likelihood, fall 
to a lower level of concern for us.
    Chairman Ehlers. Well, the third one. Is it true that the 
EPA is going to end the technology verification program during 
Fiscal Year 2004 for building air filters that detect chemicals 
in the air, because again, you won't have enough money to 
finish it next year?
    Dr. Gilman. We will complete the verification on 10 filters 
that we are currently looking at, and have no plans for further 
work in that area.
    Chairman Ehlers. Well, that highlights my concerns, because 
you have certain areas of lead responsibility, and I understand 
the need to prioritize. I have also been involved in research, 
and I have been, in one case, an administrator, and had to make 
those decisions, too. But it just seems inordinately poor 
practice to basically cut off something before it should be cut 
off, forcing you to prioritize even work that is being done 
this year, because you won't have the money next year.
    Dr. Gilman. And as I said, Mr. Chairman, we are in 
discussions with the Department of Homeland Security and other 
agencies, so that if we come across something that falls in the 
category of high priority, near-term priority, we have the 
ability to work with them to see if we can take care of that 
problem.
    Chairman Ehlers. Well, everyone knows we have given 
Homeland Security enough to do all the research this nation is 
going to need for the next few years, but at the same time, you 
know, the expertise in the EPA, you have begun the work. It 
just doesn't seem appropriate for me to cut that off at this 
point, at least not to the extent it has been cut off.
    My time has expired. We will recognize the gentleman from 
Colorado again, if he has anything else to ask.

                  Threats to Wastewater Infrastructure

    Mr. Udall. Yes, thank you, Mr. Chairman. I might like to 
use my additional five minutes. I did want to associate myself 
with Dr. Ehlers' remarks about our commitment to continuing to 
make sure the funding is available, and the long-term 
investment.
    I know both Vern and I are very committed to the twofer 
concept when it comes to homeland security, where we are making 
these investments in research and development that also pay off 
in better public health, safer buildings, whether or not we are 
attacked again, and of course, that is our goal, to not be 
attacked again. But particularly in these two areas, it seems 
like we have had enough experience now that we are put on 
notice.
    With that, Dr. Baecher, if I could direct a question to 
you, and maybe Dr. Gilman has a comment as well. You note the 
lack of information in the Action Plan regarding threats to the 
Nation's wastewater infrastructure.
    Could you elaborate on the potential harmful effects of 
attacks to the wastewater systems, and how you would prioritize 
this research need, and then, if I could add another comment. 
In looking over some correspondence between the--HACH and the 
EPA, there is this mention of backflow attacks on drinking 
water distribution. I am reminded that I have a back pressure 
valve on my sprinkler system in my home, which is to prevent 
water backing up into the house. Is this a similar kind of 
dynamic that is being alluded to here with a backflow attack? I 
have heard a lot of talk concerning my local water system. If 
somebody goes to the reservoir and pours some chemical, or an 
agent in the water, it will be diluted pretty quickly, and then 
it has to run through the systems that are in place to deliver 
safe water to homes and to businesses.
    Is this a way to get around that problem that an attacker 
would face?
    Dr. Baecher. Perhaps I should start with that question 
first.
    Mr. Udall. Yes.
    Dr. Baecher. If I may. If you look at the water system, we 
have water collection areas and reservoirs, which hold that 
water, and then it is transferred over relatively long 
distances to a treatment plant, where it is sometimes filtered, 
sometimes not, and chlorinated and otherwise made suitable for 
potable water. Then it is put into a distribution system, a 
pipe network, and distributed to retail users, to people in 
their homes and to businesses and that sort of thing.
    If you introduce contaminants at the supply point in the 
reservoirs, there is quite a lot of dilution. That is not to 
say that there are no opportunities, but there is quite a lot 
of dilution, and that water is also subsequently treated, 
perhaps filtered, perhaps chlorinated.
    If you go downstream of the treatment plant, though, into 
the pipe network, in most urban areas, any fire hydrant, any 
faucet, can be back-pressured to introduce contaminants back 
into the water downstream of the treatment. Now, there still 
are residuals; chlorine and other chemicals in the water to 
protect it, but nonetheless, you could, on a local basis, 
within a small, perhaps multi-block area, have significant 
impact by back-pressuring contaminants at that point, 
downstream of the filtering and chemical treatment.
    And I believe that is what you are referring to. There are 
protective devices that are on the scale that need to be used, 
which would not be inexpensive, but there are back-pressure 
devices that can be used to prohibit people from doing that. 
They typically are not installed in, for example, fire 
hydrants.
    Mr. Udall. Would it take some specialized equipment to 
actually perpetrate that kind of an attack?
    Dr. Baecher. It would not, sir.
    Mr. Udall. It would not.
    Dr. Baecher. No, just--as long as you can get the pressure 
sufficiently higher than the pressure in the distribution 
system, you can basically pump water upstream, if you will.
    Mr. Udall. And you could do that in the dark of the night?
    Dr. Baecher. Well, you could rent a house on Capitol Hill.
    Mr. Udall. Do you have any good news here?
    Dr. Baecher. The spatial distribution of the impact would 
be limited, of course----
    Mr. Udall. Yes.
    Dr. Baecher. That is some good news.
    Mr. Udall. So you wouldn't even have to be doing it in the 
public domain.
    Dr. Baecher. It would not.
    Mr. Udall It could be undertaken in the privacy of your own 
rented home.
    Dr. Baecher. That is right, but I mean, the number of 
people that would be affected by that sort of attack is 
relatively limited.
    Mr. Udall. Yes.
    Dr. Baecher. Because the materials have to move through the 
distribution network. They won't move that far, and depending 
on where you attack the distribution system, there may not be 
that much downstream of it.

        Environmental Protection Agency's Role in Detection and 
                              Containment

    Mr. Udall. If I might, in my remaining bit of time I have. 
If I could move back to the building side, we talked about the 
EPA's role being detection and containment. I am sorry, being--
decontamination disposal. Those are more the reactive measures 
that we have to take. The proactive are the detection and 
containment piece, and I worry about who might pick that up, 
Dr. Gilman, if the EPA focuses on this other area, and then, 
are you in the process of working with the experts on the front 
end challenge?
    Dr. Gilman. The detection part has been as the NRC 
recommended to us, our lower priority. It is an area where the 
Department of Defense and a number of others--the Department of 
Energy and the Department of Homeland Security, are very 
focused, so we have been deferring to them on detection. Our 
motto at our Center is we beg, borrow, and steal whatever 
technology is there. We look to them for the front end 
development, and then worry about its application in the 
buildings or water systems.
    Containing is in the buildings arena. The filtration work 
and the like is something we have been focused on. It is also 
something that the Department of Homeland Security and 
especially the Department of Defense having been working on, 
because they have been looking to their own facilities. We have 
a very good collaboration with DOD in that regard.
    Mr. Udall. Excellent. Again, I want to thank the panel, and 
it has been very informative. Thank you.
    Chairman Ehlers. The gentleman's time has expired. And you 
asked for the good news. About the only good news I heard is 
that if they did it in this area, we would finally have some 
low cost housing near the Capitol.
    This macabre sense of humor.
    Mr. Udall. Would it maybe eliminate the lead, or dissolve 
it all at the same time? Maybe there is a twofer there.
    Chairman Ehlers. Yes.
    Mr. Udall. Mr. Chairman.
    Chairman Ehlers. Dr. Albright, I jested about the amount of 
money DHS has, but I just wanted to ask you what is your view 
of what EPA is supposed to be doing, and how it is supposed to 
be paying for it, and are you willing to and do you have the 
money to pick up the slack in '05 if necessary?
    Dr. Albright. Well, again, the presidential directives make 
very clear what EPA's role is in this area. They are the lead 
and the coordinating body for this sort of work. We have, in 
Financial Year 2004 and Financial Year 2005, I would say well 
in excess of $20 million just in this particular area, in terms 
of building decontamination techniques and tools, and that does 
not go into the areas of detection, for example, which is a 
whole area that we have significant activities in. Not the 
least of which are aimed at detection of attacks on major 
public facilities. So, I think the answer is absolutely. We 
work very closely with EPA. I mentioned in my statement the 
extant working groups, or at least some of the existing working 
groups, that are aimed at coordinating that kind of work. 
Again, EPA has the lead in that, and we respond to that lead. 
Actually, all our interaction with EPA, well precedes the 
presidential directives. The presidential directives just 
basically enshrined in policy what had been happening for some 
time.
    Chairman Ehlers. To answer my question directly, you mean 
you are willing to pick up the slack if necessary?
    Dr. Albright. I am not exactly sure how much slack there 
actually is. Rather than looking at the EPA program, I think if 
you looked at the national program in detection and 
decontamination techniques, not just what is going on in the 
Department of Homeland Security. There is significant work 
being done at DARPA. And by the way, we are co-funding some 
efforts at DARPA within the Department of Homeland Security. 
You look at work that is being done elsewhere within DOD and 
within the Department of Energy, and I think you will find 
there is a very formidable program in this area.

    Critical Research Areas on Buildings Decontamination and Water 
                                Systems

    Chairman Ehlers. And on that point, I would like to ask Dr. 
Baecher and Dr. Kolb a question. Excuse me. Are there any 
critical research questions on buildings decontamination or 
building decontamination research, or water systems security, 
that have not yet been included in the Agency's research plans, 
the EPA's research plans?
    Dr. Kolb. Well, with the caveat that our committee finished 
its work last October, we really haven't reviewed anything that 
the Agency has done, or put in place since then. I did mention 
that in our report, we outlined a number of areas where we 
thought a longer term, longer than the three-year program 
currently underway, could and in fact should be funded and 
pursued.
    In my written testimony, I listed several of these. Just 
very quickly, one is to better characterize the extent of an 
attack, including better standards for cleanup levels, better 
sampling methodology, better understanding of the transport 
robustness and viability of chemical and biological agents 
across the full range of public structures.
    Another is to develop methods for decontamination of very 
sensitive equipment and priceless objects, and hard to reach 
places, such as the interior of duct work and the areas above 
ceiling tiles in buildings.
    Also, to evaluate the toxicology of decontaminating agents 
and any toxic byproducts that might be formed during 
decontamination process. Obviously, we don't want the cure to 
be worse than the disease.
    And finally, to better understand and improve the tools for 
modeling building airflows, contaminant dispersal patterns and 
other information needed to develop practical, real-time 
containment strategies, which is, in our view, quite a long-
term research project, particularly given the very large 
variety of buildings that we may want to try to actively 
protect, as Mr. Udall indicated.
    Chairman Ehlers. Mr. Baecher.
    Dr. Baecher. I think on the--speaking for the water panel, 
the panel was impressed by how comprehensive the EPA's Action 
Plan was in water security. We made a very large number of 
recommendations on individual research items, which are 
detailed in the plan. There is some 100 plus such 
recommendations.
    To echo what we just heard about building research, though, 
I think the panel did identify the need for some focus on 
longer term research needs and opportunities. The Action Plan 
from EPA necessarily focused on a very short-term three-year 
window, and we understand that that was the mission in the 
context of the plan, but in our report, we also talk about 
longer term opportunities.
    Some of those opportunities (perhaps many of them are not) 
are opportunities that will span across agencies. The EPA, 
while being the lead agency for water security, is not 
necessarily the lead agency in things such as communicable 
diseases and others, and so there needs to be, in the panel's 
view, some coordination among agencies in looking at the longer 
term needs.
    One of those that the panel did identify, which falls under 
the general rubric that we just heard about a few moments ago, 
of dual use, or of looking at inadequacies of things like 
operations and maintenance of the water system, which has long 
been declining in the country, and the opportunity that is 
presented by improving that maintenance for water security.
    Chairman Ehlers. Thank you very much. I was just checking 
with Mr. Udall that he has no further questions, so I will keep 
going for a few more, and then we will release the prisoners.
    The question for Dr. Gilman or--Gilman and Dr. Albright. 
Who has lead responsibility on your agencies or other federal 
agencies for research relating to chemical, biological, or 
nuclear contamination in large, public spaces, such as the 
National Mall here in Washington, or any large assemblage that 
might occur?
    Are there any other research issues for which lead 
responsibility remains unclear? I will let you each comment on 
that?
    Dr. Gilman. Well, I think it is fair to say that the 
Department of Homeland Security has stepped out in the large 
spaces arena. We have been more focused on interior spaces, 
buildings and the like. I think there is an expectation on the 
Department that the EPA become more involved in that.
    Certainly, our emergency response teams and our 
decontamination team need to be focused in that arena, so that 
is a point of ongoing collaboration between our two 
organizations. I would like to return to a number of the things 
that were highlighted for future looks.
    Chairman Ehlers. Let me just get Dr. Albright on the record 
on the question first.
    Dr. Albright. Yes, I would agree with that statement. I 
think our focus has tended to be on the very large scale 
classes of attacks. We, again, rely on EPA very strongly, in 
terms of taking a leadership role in terms of standards and 
policy in this area, but certainly, we have spent considerable 
effort looking at some of the research issues associated with 
large scale cleanup, not just from biological attacks, where 
again, there is a policy decision that has already been made, 
but also, very importantly, on radiological attacks. We just 
concluded a significant effort with EPA and other agencies on 
thinking about how we would think about how clean is clean? 
What are the policy issues associated with that?
    And then on the research and development kinds of 
activities you need to do, think about cleaning up, for 
example, large strips of asphalt, and the exteriors of 
buildings, and that sort of thing.
    Chairman Ehlers. Yes. And obviously, in radiologic 
situations, you would have the DOE involved as well.
    Dr. Albright. DOE certainly has done a significant amount 
of work in that area, generally associated with cleanup of 
their own sites. But in terms of cleaning up cities, you know, 
marble exteriors and that sort of thing, there has actually 
been remarkably little work done to date, and so that is some 
slack we have been picking up.
    Chairman Ehlers. Okay. Dr. Gilman.
    Dr. Gilman. Yes, and speaking of that one question of 
standards for cleanup, we do have a very good news story in 
terms of the radiological side, where the Department of 
Homeland Security, the Department of Energy, the Nuclear 
Regulatory Commission, and the EPA have jointly put together 
some guidance in that regard. I have been asked by my own 
Agency to coordinate across our programs on the chemical and 
biological side, in anticipation of doing a similar cross-
agency effort to try to arrive at some guidance for both 
immediate response and longer term decontamination and return 
to original or modified use for different areas.
    It is an area that the two panels at the NRC said needed to 
be addressed. It is an area that we are engaged in addressing. 
Some of the other things mentioned as areas for further look, 
the question of the toxicity of decontamination. That is, in 
large part, an existing mission of the Environmental Protection 
Agency in providing authorization to utilize fumigants in the 
case of decontamination. We are working with the Office of 
Pesticides, which has the principal responsibility to prior 
approve a number of fumigants and make sure that we understand 
the health consequence of the fumigants as well. That is an 
example of the kinds of things that we have been trying to do 
in response to the recommendations of the NRC panels.

             President's Budget Request for Decontamination

    Chairman Ehlers. Thank you. I just want to re-emphasize the 
line of questioning I followed on some of these things is based 
on my experience of agencies for no good reason being deprived 
of money. As I gave the example of NIST earlier, and as best we 
can find out, it was just a few Senate staffers, maybe House 
staffers in a back room. The appropriations process making a 
decision that decimated the agency. And in this particular 
case, I think someone possibly in OMB or somewhere else has cut 
off money that you need, just because they misunderstood what 
money you had available this year to carry over.
    I just don't want you to get in that box, because I think 
it will be detrimental to the Agency. Just to get just a few 
more things on the record. How much does the EPA intend to 
spend on building decontamination R&D in Fiscal Year '05? Do 
you have that, Dr. Gilman?
    Dr. Gilman. The request and--the appropriation for '04 is 
about $12.8 million. Excuse me, it is about $8.6 million. We 
have obligated close to half of that in '04 so far. Some of 
that money that hasn't been obligated may get obligated in the 
'05 timeframe. Some of the work is actually contracted for or 
established in the '04 timeframe, may carry over, but we aren't 
talking about truly significant amounts of money carrying over 
into the '05 timeframe. The '03 money that was the largest pot 
of money that was not fully obligated at the time we submitted 
the budget, has now largely been obligated except for a few 
hundred thousand dollars.
    Chairman Ehlers. Can you send us a letter giving us the 
precise amounts of those?
    Dr. Gilman. Certainly.
    Chairman Ehlers. For both '04 and '03. And does this money 
appear in the budget request, then? The President's budget 
request.
    Dr. Gilman. The discussion of prior year activities, but 
there is no request for '05 dollars, if that is the question 
you are asking.
    Chairman Ehlers. Okay. And with the budget request, are you 
sure you will be able to continue in Fiscal Year '05 any of the 
activities you have in '04?
    Dr. Gilman. To the extent that we don't complete them, and 
they have been on our priority list, and we are planning on 
carrying them out. We will carry that work over into '05.
    Chairman Ehlers. And I guess we would also like to know 
which ones, if you can tell us that.
    Dr. Gilman. Okay.
    Chairman Ehlers. In writing if you can't do it here.
    Dr. Gilman. All right. Okay.
    Chairman Ehlers. All right. As I said before, I am from the 
Federal Government, and I am here to help you. We will be 
pursuing this in more detail as we do our work and as we enter 
into the Appropriations Office.
    I certainly want to thank everyone for their testimony, 
particularly our guests who have worked so hard on the panels. 
And these panels are a very important part of the functioning 
of the Federal Government. There is not a lot of scientific 
expertise in the Congress, or even in parts of the 
Administration, and so we really appreciate your willingness to 
work on these panels and help your country that way.
    I still remained concerned that we haven't heard fully why 
the EPA building program was cut. There is obviously some work 
that will not be done because of the cut, and I look forward to 
receiving the EPA's revised long-term R&D plan.
    I also will expect to work with the Administration and the 
Appropriation Committee to ensure that this important work is 
not stopped in its tracks, that we continue with the really 
important work, and provide not just the funding but the 
capability as well, so that can be done.
    Having said that, if there is no objection, the record will 
remain open for additional statements from the Members, and for 
answers to any follow-up questions the Subcommittee may ask of 
the panelists, which would happen by letter from Members of 
this committee.
    Without objection, so ordered, and with that, the hearing 
is now adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]

</pre></body></html>
